United States
Department of
Agriculture     Office of
                Inspector General
Office of
Inspector
General

No. 50

January 2004    Semiannual Report
                to Congress
                FY 2003—Second Half
On the cover: Graphic commemorating the 25th anniversary of the enactment of the Inspector General Act of 1978,
courtesy of the President’s Council on Integrity and Efficiency/Executive Council on Integrity and Efficiency.




The U.S. Department of Agriculture (USDA) prohibits discrimination in all its programs and activities on the basis of race, color, national
origin, sex, religion, age, disability, political beliefs, sexual orientation, or marital or family status. (Not all prohibited bases apply to all
programs.) Persons with disabilities who require alternative means for communication of program information (Braille, large print,
audiotape, etc.) should contact USDA’s TARGET Center at 202-720-2600 (voice and TDD).

To file a complaint of discrimination, write USDA, Director, Office of Civil Rights, Room 326-W, Whitten Building, 1400 Independence
Avenue, SW, Washington, D.C. 20250-9410 or call (202) 720-5964 (voice and TDD). USDA is an equal opportunity provider and
employer.
i
ii
Overview of USDA and OIG


To help the reader better understand the context in                  nutritional needs. The Food and Nutrition Service
which we audit and investigate the programs and                      (FNS) works to reduce hunger by providing children
operations of the Department, this section outlines the              and low-income individuals with access to food, a
missions of USDA’s agencies and the role OIG fulfills.               healthy diet, and nutrition education.
The overriding USDA mission is to enhance the quality
of life for the American people by supporting agriculture.         • USDA ensures that the Nation’s commercial supply
At OIG, we perform a complementary function—we take                  of meat, poultry, and egg products is safe,
as our motto and our purpose, “Ensuring the Integrity of             wholesome, and correctly labeled. The Food Safety
American Agriculture.”                                               and Inspection Service (FSIS) sets standards for
                                                                     food safety; inspects meat, poultry, and egg
This Department plays a role of great breadth and                    products; and informs the public about food safety
magnitude in American life, both at home and abroad,                 issues. FSIS works with a number of national and
with hundreds of programs. While we at OIG do not                    international organizations including the Meat and
make policy or run programs, our auditors work to                    Poultry Advisory Committee Staff and National
ensure that both policy and programs are formulated                  Advisory Committee on Meat and Poultry Inspection,
and carried out properly, and our investigators, as the              the National Advisory Committee on Microbiological
primary law enforcement arm of the Department,                       Criteria for Foods, and the Codex Alimentarius
investigate significant criminal activities involving USDA           Commission, an international organization created by
programs, operations, and personnel.                                 the United Nations to promote the health and
                                                                     economic interests of consumers.
HIGHLIGHTS OF USDA AGENCIES
                                                                   • USDA facilitates the domestic and international
When President Abraham Lincoln signed the legislation                marketing of U.S. agricultural products and ensures
creating USDA in 1862, he called it the “people’s                    the health and care of animals and plants. The
Department.” It touches all of our lives, every day, from            Agricultural Marketing Service (AMS) facilitates the
city to suburb, and small town to farm.                              strategic marketing of agricultural products in
                                                                     domestic and international markets, while ensuring
• USDA helps keep America’s farmers and ranchers in                  fair trading practices and promoting a competitive
  business as they face the uncertainties of weather                 and efficient marketplace. USDA agencies are active
  and markets. The Farm Service Agency (FSA) helps                   participants in setting international and national
  ensure the well-being of U.S. agriculture through the              standards through international organizations and
  administration of farm commodity programs; farm                    Federal-State cooperation. For example, AMS
  operating, ownership, and emergency loans;                         provides services to promote the quality of U.S.
  conservation and environmental programs;                           agricultural products, including grading, quality
  emergency and disaster assistance; domestic and                    standards, and certification.
  international food assistance; and international export
  credit programs. The Foreign Agricultural Service                  The Animal and Plant Health Inspection Service
  (FAS) opens, expands, and maintains global market                  (APHIS) protects America’s animal and plant
  opportunities through international trade,                         resources by safeguarding them from exotic invasive
  cooperation, and sustainable development activities.               pests and diseases, monitoring and managing pests
  The Risk Management Agency (RMA) provides                          and diseases existing in the United States, resolving
  agricultural producers with the opportunity to achieve             trade issues related to animal and plant health, and
  financial stability through effective risk management              ensuring the humane care and treatment of animals.
  tools, such as crop insurance.                                     The Grain Inspection, Packers and Stockyards
                                                                     Administration (GIPSA) facilitates the marketing of
• The Department works to harness the Nation’s                       livestock, poultry, meat, cereals, oilseeds, and
  agricultural abundance with a goal of ending hunger                related agricultural products, and promotes fair and
  and improving nutrition and health in the United                   competitive trading practices. GIPSA also provides
  States and in many other places around the world. It               Federal grading standards and a national inspection
  administers the food stamp and other nutrition                     and weighing system for grain and oilseeds.
  assistance programs, and links scientific research to


                                                             iii
• USDA provides help to farmers and ranchers to                   OIG’S ROLE IN USDA
  promote the health of the land through conservation
  programs administered by the Natural Resources                  Helping to identify and correct questionable practices
  Conservation Service (NRCS) and FSA. NRCS                       and bring criminals to justice adds value to the
  provides national leadership in a partnership effort to         Department’s programs and operations. OIG conducts
  help people conserve, maintain, and improve                     and supervises audits and evaluations, as well as
  America’s natural resources on the Nation’s 1.6                 investigations and law enforcement efforts relating to
  billion acres of private and other non-Federal land.            USDA’s programs, operations, and employees. OIG’s
  Stewardship of 191 million acres of national forests            goal is to promote economy, efficiency, and
  and grasslands rests with the Forest Service (FS),              effectiveness. In addition, investigators concentrate on
  the largest USDA agency.                                        preventing and detecting crimes, as well as assisting
                                                                  with the prosecution of criminal and civil cases. Auditors
• USDA provides research, analysis, and education to              conduct financial and performance audits of USDA’s
  assist individuals and communities, and improve                 programs and activities.
  agricultural products. The Agricultural Research
  Service (ARS) works to provide the scientific                   We perform an array of work that is as diverse as USDA
  knowledge and technologies needed to ensure the                 itself. Audit work might include visiting food stamp
  viability of American agriculture. The Cooperative              retailers, reviewing crop insurance claims, reviewing
  State Research, Education, and Extension Service                inspection controls at meat packing plants, and
  (CSREES) works with land-grant universities,                    analyzing financial statements and reports. We also
  historically black colleges and universities, Hispanic-         audit programs to ensure that disaster assistance goes
  serving institutions, Native American institutions, and         to producers who suffered losses and need help. As
  other universities and public and private                       Federal law enforcement officers, OIG special agents
  organizations to advance research and education in              conduct a wide range of criminal investigations. Some
  the food, agricultural, and related sciences. The               involve theft, smuggling, bribery, extortion,
  Economic Research Service (ERS) is USDA’s                       embezzlement, food tampering, processing and sale of
  principal social science research agency. The                   adulterated food products, threats against the food
  National Agricultural Statistics Service (NASS)                 supply, false claims, misuse of loan funds, or other
  serves the basic agricultural and rural data needs of           fraud against the Government. Others involve
  the country by providing statistical information and            workplace violence, including threats, assaults, or
  services to farmers, ranchers, agribusinesses, public           homicide of Departmental employees, while engaged in
  officials, and others.                                          performance of official duties; and child pornography
                                                                  perpetrated by USDA employees using Government
• USDA helps rural communities, home to                           systems and equipment. OIG special agents are
  approximately 60 million Americans, develop, grow,              authorized to make arrests, execute warrants, and carry
  and improve their quality of life by targeting financial        firearms.
  and technical resources to areas of greatest need,
  through activities of greatest potential. The Rural             Our activities better ensure the Department’s protection
  Business-Cooperative Service (RBS) provides                     of production agriculture, the public, and USDA
  financing and technical assistance to help build                employees, and we save the Government money.
  competitive businesses and establish and sustain                Taxpayers expect and deserve to have their money
  agricultural cooperatives. The Rural Housing Service            benefit those who are entitled. Funds for improperly
  (RHS) provides financing and technical help for                 implemented programs can be put to better use. Based
  needed community facilities and housing for very-               on our audit work this reporting period, management
  low- to moderate-income areas. The Rural Utilities              officials agreed to recover $17.8 million and put an
  Service (RUS) provides financial and technical                  additional $19 million to better use. Our investigative
  assistance so rural areas can have modern,                      efforts resulted in $24.1 million in recoveries/collections,
  affordable electricity, telecommunications, public              fines, restitutions, claims established, cost avoidance,
  water, and waste removal services.                              and administrative penalties. Our investigations
                                                                  produced 244 indictments and 223 convictions. This
                                                                  report covers the period April 1 through September 30,
                                                                  2003.

                                                             iv
MANAGEMENT CHALLENGES                                            9. USDA Faces Major Challenges in Implementing the
                                                                    2002 Farm Bill and Disaster Assistance Legislation
The Reports Consolidation Act of 2000 requires OIG to
                                                                 10. Integrity of the Federal Crop Insurance Programs
identify and report annually the most serious
                                                                     Policyholders’ Database Must Be Strengthened
management challenges the Department and its
agencies face. This year, we have summarized USDA’s
                                                                 Agency-Specific Challenges
most serious management challenges by issue area,
rather than by mission. USDA’s major management                  11. Strong Internal Control Structure Is Critical to the
challenges frequently cross organizational lines within              Delivery of Forest Service Programs
the Department and should be addressed on a
                                                                 12. Improvements and Safeguards Needed for Rural
coordinated basis. The management challenges OIG
                                                                     Multi-Family Housing Program
identified last year fall under one or more of the general
issue areas we have identified this year. While progress
                                                                 STRATEGIC GOALS
has been made in each challenge facing USDA, more
can be done to strengthen management controls, to
                                                                 OIG’s strategic plan reflects the work of all levels of the
ensure USDA benefits go to those intended, and to
                                                                 organization. It assesses our purpose, our future, and
protect the integrity of USDA’s programs and activities.
                                                                 the needs we must meet to achieve our mission, realize
Also, we have identified three new emerging issues that
                                                                 our vision, and provide a worthy return on the U.S.
either mandate new requirements or have not been
                                                                 taxpayers’ investment. As part of our Strategic Plan for
effectively addressed on a Department-wide
                                                                 Fiscal Years (FY) 2004-2008, we have developed four
coordinated basis. OIG has identified 10 Department-
                                                                 goals, which will be achieved by specific strategies and
wide and 2 agency-specific challenges that we believe
                                                                 actions:
are the most significant management issues facing
USDA.                                                            1. Support USDA Management in the Identification and
                                                                    Reduction of Vulnerabilities in Benefits Programs
Department-wide Challenges
                                                                 2. Support USDA in the Enhancement of Safety and
1. Homeland Security Considerations Should Be                       Security Measures To Protect Agricultural
   Incorporated Into Program Design and                             Resources and Related Public Health Concerns
   Implementation
                                                                 3. Maximize USDA Effectiveness Through Increasing
2. Increased Oversight and Monitoring of Food Safety                the Efficiency With Which USDA Manages and
   Inspection Systems Are Needed To Meet Hazard                     Employs Public Assets and Resources
   Analysis and Critical Control Point (HACCP) Goals
                                                                 4. Ensure OIG Readiness To Achieve Its Strategic
3. Risk Must Be Examined and Improper Payments                      Business Goals
   Minimized Within USDA – Emerging Issue
                                                                 As we refocus our overall business planning efforts, one
4. Financial Management – Improvements Made but
                                                                 byproduct is that we anticipate reformatting our
   Additional Actions Still Needed
                                                                 semiannual reports. For FY 2004, we will produce
5. Information Technology Security – Much                        results-oriented semiannual documents, whereby our
   Accomplished, More Needed                                     strategic plan will provide a framework against which we
                                                                 will report. Ultimately, our strategic plans, annual plans,
6. Controls Over Germplasm Storage Material and
                                                                 budget requests, and semiannual reports will work in
   Genetically Engineered Organism Field Testing Are
                                                                 concert to present a unified view of historical trends, our
   Critical to U.S. Markets – Emerging Issue
                                                                 current situation, ongoing efforts, and future goals. This
7. Civil Rights Complaints Processing Still a Concern at         will achieve continuity among successive semiannual
   USDA                                                          reports, as well as other documents describing our
                                                                 work. In addition, our reporting will dovetail with the
8. Research Misconduct Policy Not Consistently
                                                                 President’s Management Agenda and the Department’s
   Implemented – Emerging Issue
                                                                 strategic 5-year plan.




                                                             v
vi
Contents


Message From the Inspector General ..................................................................................................................                            i
Overview of USDA and OIG ...................................................................................................................................                   iii
   Highlights of USDA Agencies ..............................................................................................................................                  iii
   OIG’s Role in USDA ............................................................................................................................................             iv
   Management Challenges .....................................................................................................................................                  v
   Strategic Goals ....................................................................................................................................................         v
Contents ..................................................................................................................................................................   vii
Homeland Security .................................................................................................................................................             1
   Front-Line Vulnerabilities .....................................................................................................................................             1
   Investigating Sabotage and Threats ....................................................................................................................                      4
Information Technology ........................................................................................................................................                 5
Protecting the U.S. Food Supply and Agriculture ...............................................................................................                                 7
   Food Safety .........................................................................................................................................................        7
   Safety of Production Agriculture ..........................................................................................................................                11
Public Corruption ...................................................................................................................................................         12
Rural Development ................................................................................................................................................            14
   Rural Business-Cooperative Service ...................................................................................................................                     14
   Rural Housing Service .........................................................................................................................................            16
   Rural Utilities Service ...........................................................................................................................................        17
Feeding Programs ..................................................................................................................................................           19
   Food Stamp Program ..........................................................................................................................................              19
   Special Supplemental Nutrition Program for Women, Infants, and Children .......................................................                                            19
Program Irregularities and Abuses ......................................................................................................................                      21
   Farm Programs ....................................................................................................................................................         21
   Farm Service Agency ..........................................................................................................................................             21
   Federal Crop Insurance .......................................................................................................................................             22
   Risk Management Agency ...................................................................................................................................                 23
Financial Management and Accountability .........................................................................................................                             24
   Departmental Administration/Office of the Chief Financial Officer .......................................................................                                  24
Summaries of Audit and Investigative Activities ................................................................................................                              26
Full FY 2003 Results in Key Categories ...............................................................................................................                        27
Statistical Data .......................................................................................................................................................      28
   Audits Without Management Decision .................................................................................................................                       28
   Indictments and Convictions ................................................................................................................................               35
   Office of Inspector General Hotline ......................................................................................................................                 36
   Freedom of Information Act and Privacy Act Requests .......................................................................................                                37
Appendix I: Inventory of Audit Reports
   With Questioned Costs and Loans ..................................................................................................................                         38
Appendix II: Inventory of Audit Reports
   With Recommendations That Funds Be Put to Better Use ............................................................................                                          39
Appendix III: Summary of Audit Reports Released From
   April 1 Through September 30, 2003 ...............................................................................................................                         40




                                                                                        vii
viii
Homeland Security


The events of September 11, 2001, and subsequent            initiated a review of controls and procedures over
heightened concern about potential terrorist attacks and    chemicals and radioactive materials stored and used at
threats have added a new dimension to the                   USDA facilities. This review is pointing to the need for
Department’s missions and priorities. At issue are          Department-wide policies and procedures on the
USDA’s missions to ensure the safety and abundance          accountability of hazardous chemicals. (2) We reviewed
of the Nation’s food supply, from the farm to the table,    homeland security issues as they pertained to USDA
and to protect the health of American agriculture from      owned or controlled agricultural commodity inventories,
the introduction of foreign animal and plant pests and      focusing on the actions taken by FSA and the
diseases. USDA must now readily identify its assets,        Commodity Credit Corporation to minimize the risk to
perform security risk assessments, and design and           such commodities, and thus to the food and feed supply
implement appropriate safeguards to prevent or deter        of the country. We will issue these reports soon. (3) We
deliberate acts to contaminate the food supply, disrupt     are also reviewing APHIS’ controls over pesticides,
or destroy American agriculture, or harm U.S. citizens.     drugs, and other hazardous materials used in protecting
At the same time, USDA must work in concert with the        agriculture from animal predators. In the wrong hands,
Department of Homeland Security (DHS) to continue to        such chemicals could be harmful to people and animals
strengthen the current inspection and safeguard             alike. Previously, we found that APHIS could not
processes for the unintentional introduction of pests,      account for material amounts of some of these
diseases, and contaminants on imported products. The        chemicals.
Department has been both proactive and responsive to
specific vulnerabilities identified by OIG. However, it
must continue its efforts to shift from a focus on safety     For the second half of FY 2003, OIG issued three
goals to both safety and security in each of its mission      audit reports relating to homeland security. For the
areas; to foster effective coordination and                   full fiscal year, OIG issued seven audit reports.
communication across jurisdictional lines to better           OIG’s investigations for the second half of FY
define roles and responsibilities; and to increase            2003 yielded 10 indictments, 10 convictions, and
Departmental oversight of, and accountability by, USDA        $2.1 million in monetary results. For the full fiscal
agencies.                                                     year, OIG results totaled 17 indictments, 23
                                                              convictions, and $2.5 million.
The Department, in response to our audit
recommendations, has taken significant steps to
incorporate these approaches in restructuring some of
                                                             FRONT-LINE VULNERABILITIES
its mission activities. However, more needs to be done
to provide assurance that established policies and
procedures are consistently implemented and that            Government-wide Policies Are Needed To Establish
effective inter- and intra-agency coordination and          Security Standards for Federally Funded Research
communication continue.                                     at Non-Federal Institutions

This year, there was a significant transfer of              As part of our effort to assist the Government in
responsibilities and personnel from USDA to DHS. A          strengthening homeland security, we reviewed non-
major challenge now faced by USDA is timely and             Federal institutions that receive USDA funding to
effective coordination and communication, not only          conduct research into human, animal, and plant
within USDA, but also with DHS. Prior audits disclosed      diseases. We evaluated the controls these institutions
material weaknesses within USDA when certain                exercise over biological agents and toxins, and
functions were solely the responsibility of USDA.           chemical and radioactive materials.
Therefore, it is imperative that USDA continue to work
with DHS to help ensure appropriate control systems         We visited 104 laboratories at 11 USDA-funded
and processes.                                              institutions and determined that although some of the
                                                            institutions had implemented security standards on their
Currently, we have a number of ongoing reviews              own, no Federal Government-wide or institution-wide
evaluating the spectrum of USDA agencies’ homeland          standards provided security guidance to the
security initiatives and activities in response to the      laboratories. Institutions that manifested a concern with
heightened alert resulting from September 11. (1) We

                                                                                                                      1
security were generally those whose laboratories had         We recommended that the issues raised in our report
experienced break-ins or domestic terrorist attacks prior    be elevated to the Department of Homeland Security
to September 11, 2001. We found deficiencies in              and to the Executive Office of the President’s Homeland
inventory controls over biological materials, physical       Security Council, and that a Federal Government-wide
security at the laboratories, and access to research         set of security standards be established. We
areas. For example:                                          recommended that these standards call for:

• Only 1 of the 11 institutions we visited had a             • A centralized database of all biological materials
  centralized database to maintain an institution-wide         stored at an institution,
  summary-level inventory of the biological materials
  under their administration.                                • written procedures concerning background checks
                                                               for all individuals having access to CDC- and APHIS-
• Forty-three of the 104 laboratories we visited did not       listed agents and toxins as well as a requirement to
  maintain detailed inventory records for their biological     report missing pathogens, and
  agents stored in freezers, and only a few conducted
  periodic physical inventories.                             • risk assessments of laboratories and security
                                                               upgrades based on the risks assessed.
• Of the 104 laboratories visited, 39 laboratories at all
  11 institutions used or stored pathogens on the            The Department generally agreed with the findings and
  Centers for Disease Control and Prevention (CDC)           recommendations and specifically agreed that a
  select list or the APHIS list of high-consequence          consolidated set of security standards should apply to
  pathogens, and 20 laboratories at 10 of the                federally funded research at all non-Federal institutions
  institutions did not have security that we regarded as     handling various types of biohazardous material.
  being commensurate with the risk associated with           Department officials have begun and plan to continue
  these pathogens.                                           discussions with the Homeland Security Council for the
                                                             Executive Office of the President regarding
• In an unsecured freezer at one institution, we             biohazardous materials, including those issues
  discovered a CDC select agent for which no risk            identified in our report. The Department has also
  assessment had been made. The agent, Yersinia              provided guidance to USDA client organizations that is
  pestis, causes bubonic and pneumonic plague and            based on Departmental Manual 9610-1, USDA Security
  requires strict containment. The freezer in which this     Policies and Procedures for Biosafety Level-3 Facilities.
  agent was stored had not been inventoried since            Additionally, the Cooperative State Research,
  1994, when a box of unidentified pathogens was             Education, and Extension Service (CSREES) plans to
  noted as missing.                                          modify its “Terms and Conditions” for entities receiving
                                                             USDA funding by February 1, 2004, to incorporate all
• A laboratory at a second institution claimed to have       laws, regulations, and guidance regarding biosecurity
  stored in its freezer Actinobacillus pleuropneumoniae,     governed by CDC and APHIS.
  a pathogen that causes a severe and often fatal
  contagious disease in swine. However, laboratory           Improvements Needed in Security Over NRCS
  personnel had never inventoried the freezer                Assets
  completely to identify how many vials or containers of
  the pleuropneumoniae pathogen it actually had and          As part of our ongoing homeland security effort, which
  how much it ought to have had.                             includes identifying and protecting USDA resources, we
                                                             evaluated the assets maintained by the Natural
• None of the sites we visited did background checks         Resources Conservation Service (NRCS) and the
  on visitors. Only 2 of the 11 institutions we reviewed     measures implemented by the agency to protect such
  performed limited background checks on the                 assets. We found that NRCS has not yet developed or
  custodians and maintenance employees in facilities         applied effective homeland security policies to
  housing hazardous materials.                               adequately safeguard some assets such as aerial
                                                             photography, dams, plant cultivars (cultivated varieties
                                                             used by researchers to restart plantings in case of a



2
disaster), and weapons. For example, although NRCS
carries out much of its work through partnering efforts, it
has not developed strategic action plans to protect and
minimize damage to its agency-funded assets, including
dams now maintained and owned by local sponsors, in
the event of an attack.

In addition, NRCS has not performed the required
background checks for some headquarters and State
office personnel and allows many types of volunteers,
students, and partners who have not had background
checks to access computer systems and data that may
contain sensitive information. We concluded that
agency officials have critically assessed neither the
vulnerability of NRCS assets to attack nor the                A DC-6 air tanker undergoing heavy maintenance at a contractor’s
                                                              facility. OIG photo.
availability of sensitive information that might assist a
terrorist or terrorist groups.
                                                              During our current audit, we inventoried all 42 existing
We recommended that NRCS review procedures for                air tankers under FS contract and concluded that they
release of sensitive information included in aerial           were adequately secured at the time of our visits. The
photography, coordinate with local sponsors to mitigate       majority of the air tankers at the facilities we visited
risks associated with NRCS-assisted dams, ensure              were inoperable because they were undergoing heavy
plant materials are stored at national seed laboratories,     maintenance.
and ensure authority is obtained prior to allowing
firearms for personal protection from dangerous wildlife      We revisited the seven FS air tanker bases reviewed in
or identify alternative methods of protection. In addition,   our prior audit and found that only two of the bases had
we recommended that NRCS develop a plan of action             added new security features since our last visit.
to track the status of security clearances for each           However, FS had made progress toward fulfilling the
current employee, including volunteers, stay-in-school        recommendations of our audit. FS had completed its
staff, and partners. We also recommended that NRCS            initial assessments of the air tanker bases to determine
expedite required clearances for personnel assigned to        their security needs, and the agency was in the process
the National Headquarters office. NRCS staff concurred        of finalizing its National Aviation Security Policy, which
with the findings and recommendations.                        will establish minimum security standards based on risk
                                                              level.
Subsequent Review Found Further Actions Needed
To Strengthen Security Over Aircraft and Aircraft             Although FS has made progress in implementing our
Facilities                                                    audit recommendations, our review identified additional
                                                              issues that require further action.
As part of our ongoing review of departmental
vulnerability to terrorism, we followed up on a prior audit   • FS had not established adequate controls to account
(October 2001 through January 2002) to determine the            for Federal Excess Personal Property (FEPP) aircraft
status of the audit’s recommendations and to ensure             loaned to States for firefighting purposes. We noted
that all aircraft acquired or used by the Forest Service        that 52 of the 276 FEPP aircraft currently on loan to
(FS) for firefighting purposes were adequately                  States had tanks capable of dispersing biological or
accounted for and secured. We had determined that air           chemical weapons.
tankers are vulnerable to theft and could be attractive to
terrorists wishing to disperse biological or chemical         • FS does not require States with FEPP aircraft to
weapons in the air.                                             conduct security assessments at their aircraft
                                                                facilities and to develop security plans that meet the
                                                                FS’ minimum standards.




                                                                                                                                 3
• The FS draft National Aviation Security Policy does         CSREES. The restitution represents salary paid to the
  not require FS’ Washington Office to review and             individual during the period he worked on CSREES-
  approve security-level determinations and security          funded research at MSU developing a vaccine against
  plans made by air tanker base managers.                     Actinobacillus pleuropneumoniae (APP), which causes
                                                              pneumonia in swine. During the investigation, the
• FS had not formally notified all appropriate Federal        individual confessed to staging a break-in at the MSU
  agencies to monitor the use and security of air             lab in September 2002 in an attempt to conceal APP
  tankers no longer under its jurisdiction and control,       research findings he had fabricated over the previous 5
  including C-130A and PB4Y-2 air tankers that had            years. The news media reported that samples of a
  been effectively grounded by FS due to safety               highly virulent, genetically altered strain of APP had
  concerns.                                                   been stolen during the apparent break-in. Investigation
                                                              by OIG, the FBI, and MSU police found that no theft had
OIG has made a number of recommendations to                   occurred, and that the APP strain reported to be stolen
address the accountability and security of contactor and      is no more virulent than naturally occurring APP. The
FEPP aircraft and to increase FS internal controls over       graduate student admitted, first in an interview with
its security program. We have also recommended that           agents and later in an FBI-administered polygraph
FS notify the applicable Federal agencies, in writing,        examination, that he had never mutated the trkH gene
about the PB4Y-2s and C-130As no longer under FS              in APP bacteria, as he had claimed, which rendered
jurisdiction so that the use and security of these aircraft   fraudulent all the lab’s research that had been built on
may be appropriately monitored. FS officials generally        the supposed mutation. He also stated that he did not
agreed with our findings and recommendations.                 remove any APP samples from the lab. CSREES
However, FS disagreed that it should assume                   continues to freeze funding for the current APP grant
responsibility to ensure the security of all C-130As          until an ethics/misconduct investigation by MSU officials
obtained through the Historic Aircraft Exchange               can be completed following the criminal investigation.
Program during periods when the aircraft are not under
FS control. FS has agreed to consult with USDA’s              Individual Sentenced for Mailing a Threatening
Office of the General Counsel (OGC) and the U.S.              Anthrax Hoax Letter to USDA Employee
Department of Justice on this issue.
                                                              In June 2003, a Federal judge sentenced a Florida man
                                                              to 3 years of probation, 150 hours of community service,
    INVESTIGATING SABOTAGE AND THREATS
                                                              mental health treatment, and $824 in restitution for
                                                              mailing a threatening letter allegedly tainted with
Graduate Student Sentenced in Staged Laboratory               anthrax to an NRCS District Conservationist in Deland,
Break-In                                                      Florida, in the fall of 2001. The county sent a full
                                                              hazardous materials response team to the office when
In a new development to a case previously reported in         the anthrax threat was discovered. The letter contained
the semiannual report for FY 2002—2nd half, a Federal         a white powder, which was tested and found not to be
district judge sentenced a former graduate student at         contaminated with anthrax. The defendant admitted that
Michigan State University (MSU) to 10 months of               he wrote the threatening letter, put a commercial
incarceration, followed by 3 years of supervised release.     headache powder in the envelope, and mailed it to
The judge also sentenced him to 120 hours of                  NRCS because he was upset that NRCS had denied his
community service and ordered him to pay $69,937 in           request for financial assistance to dig a pond.
restitution for his role in falsifying research funded by




4
Information Technology (IT)


USDA depends on information technology (IT) to
efficiently and effectively deliver its programs and            For the second half of FY 2003, OIG issued two
provide meaningful and reliable financial reporting. One        audit reports relating to IT. For the full fiscal year,
of the more significant dangers USDA faces is a                 OIG issued four audit reports. OIG’s investigations
cyberattack on its IT infrastructure, whether by terrorists     for the second half of FY 2003 yielded one
seeking to destroy unique databases or criminals                indictment, three convictions, and $1,400 in
seeking economic gains. While the Department and its            monetary results. For the full fiscal year, OIG
agencies continue to strive to improve the security over        results totaled one indictment, four convictions,
IT resources, significant progress is still needed toward       and $2,911.
establishing an effective security program. Specifically,
increased management involvement and commitment at
the agency level is needed to effectively implement a         The Department Is Improving Its IT Security, but
strong IT security program. Despite the efforts of OIG        Further Actions Are Needed
and the Office of the Chief Information Officer (OCIO)
during the past several years to heighten awareness of        The Department and most of its agencies have taken
security issues, our reviews in 10 agencies during this       numerous actions in the past few years to improve
year continue to show that the Department and its             security over their IT resources; however, additional
agencies are not yet in compliance with Office of             actions are needed. Most critical is management
Management and Budget (OMB) Circular A-130                    commitment and accountability for implementing the
(Management of Federal Information Resources),                requirements of OMB Circular A-130 and other federally
Appendix III. This noncompliance includes preparing           mandated security guidelines.
security plans for all major applications, conducting risk
assessments, establishing disaster recovery plans, and        Our recent audit work was comprehensive, as we
implementing a system certification/authorization             reviewed the following nine agencies: FAS, FSIS,
process. We also continue to find that agencies do not        GIPSA, APHIS, RMA, ERS, NITC, the Office of Budget
have strong physical and logical access controls over IT      and Program Analysis, and the Office of the Chief
resources and have not yet effectively used the               Economist. We found that the Department is not in
vulnerability scanning tools provided by the Department       compliance with the requirements of OMB Circular A-
to identify and mitigate known security vulnerabilities in    130 in preparing all the required security plans,
their systems.                                                conducting risk assessments, preparing disaster
                                                              recovery plans, providing security awareness training to
In FY 2004, we plan to perform a review of the National       all employees, and performing system certifications and
Information Technology Center’s (NITC) general                accreditations. We also found physical and logical
controls to assess whether they are in place and              access control weaknesses in every agency we
operating effectively. We will also perform a review of       reviewed, hindering agencies’ abilities to adequately
security over USDA IT resources as is mandated by the         protect their critical IT resources. Further, most
Federal Information Security Management Act (FISMA).          agencies we reviewed did not have adequate controls in
Currently, electronic Government (e-Gov) initiatives are      place to timely identify and correct potential system
in place in 20 USDA programs. We will be performing a         vulnerabilities that could compromise the confidentiality,
review of these initiatives to evaluate the security          integrity, and availability of critical IT systems and data.
controls in place, and to assess whether data integrity       Finally, we found that not all agencies had adequate
and confidentiality may be compromised. We will be            controls in place to properly manage and test changes
performing a review of application controls on critical       to their applications, leaving those applications
USDA systems to determine whether an effective level          vulnerable to unauthorized and potentially malicious
of security is built in to protect data integrity and         changes.
confidentiality. We will also be performing a review to
evaluate security controls and the overall management
of IT assets at select agencies. Prior audits have
identified significant weaknesses in physical and logical
access controls, and a lack of adequate system
documentation and contingency planning.


                                                                                                                          5
What we found at FSIS and NITC was typical of our             Two NRCS Employees Sentenced to Prison on Child
comprehensive review:                                         Pornography Violations

• Our vulnerability scans of selected FSIS systems            • The former director of National Production Services
  disclosed weaknesses that may be exploited both               for the Natural Resources Conservation Service
  internally and externally from the Internet. FSIS had         (NRCS) in Fort Worth, Texas, pled guilty in Federal
  not adequately protected physical access to its               court to possessing child pornography from about
  headquarters computer facility by limiting it to users        June 2000 through May 2001 on his Government-
  who need access to perform their duties, and it had           issued computer at a Government facility. On July 8,
  not completed all security plans required by OMB              2003, he was sentenced to 57 months of
  Circular A-130. FSIS database administrators were             imprisonment to be followed by 3 years of supervised
  allowed to make changes to FSIS data without                  release.
  following up with appropriate personnel to verify the
  validity of the changes, and FSIS had not                   • In fall 2001, a former Arkansas NRCS district
  implemented a standard system development life                conservationist admitted that he had accessed and
  cycle process for managing its application                    downloaded pornography, including child
  development and change control process.                       pornography, on his Government computer while on
                                                                duty, and later pled guilty to possession of child
• Significant improvements have been made since the             pornography. In April 2003, he was sentenced to
  last general controls review at NITC, including the           serve 27 months of confinement, ordered to
  implementation of password policies in accordance             participate in a sex offender treatment program while
  with National Institute of Standards and Technology           incarcerated, and ordered to pay a $1,000 fine. He
  guidance, reduction of users with special access              was also ordered to serve 3 years of supervised
  privileges, completion of risk assessments, and               release after incarceration and, as part of his
  completion of a mainframe security plan. However,             probation, to participate in mental health counseling
  NITC needs to complete its disaster recovery and              and to have no access or subscription to any Internet
  business resumption planning efforts, prepare                 sources. OIG conducted this investigation jointly with
  security plans for general support systems, certify           the FBI.
  and accredit all critical systems, implement controls
  to periodically reconcile user identifications to current
  employee and contractor listings, finalize its change
  control management process, and finalize secure
  access from the Internet.

Our comprehensive report fulfilled the requirements of
FISMA for FY 2003. We made recommendations in
individual agency reports to correct the weaknesses we
identified; therefore, we made no additional
recommendations in this report.




6
Protecting the U.S. Food Supply
and Agriculture

Protecting the food supply and agriculture within the         and performance measurements for pathogen testing
Department includes those activities designed to ensure       programs; and better supervision and oversight of field
that the food the consumer eats is safe and properly          inspection processes. Also, FSIS must reassess its
labeled and graded, and that the Nation’s plant and           recall process, including traceback policies, to identify
animal resources are safeguarded. These activities are        the product source, and improve monitoring to ensure
performed by the Food Safety and Inspection Service           timely notification of the recall and maximum recovery of
(FSIS); the Agricultural Marketing Service (AMS); the         the product. While FSIS has generally been responsive
Animal and Plant Health Inspection Service (APHIS);           to these issues and has made some changes to its
and the Grain Inspection, Packers and Stockyards              inspection policies and procedures, complete corrective
Administration (GIPSA). The activities include                actions and estimated timeframes for addressing these
inspecting all domestic establishments that prepare           weaknesses are not yet known.
meat and poultry products for sale or distribution;
reviewing foreign inspection systems and                      For FY 2004, we plan to audit controls over APHIS’
establishments; inspecting and quarantining animals           Emergency Pest Eradication and Control Programs and
and plants at U.S. ports-of-entry; controlling agricultural   evaluate agency memoranda of understanding with
losses caused by predatory animals; developing                DHS. Under our ongoing food safety efforts we will audit
standards for licensing and testing veterinary biologics;     FSIS’ food safety automated information systems and
establishing grading standards for eggs, tobacco,             continue to monitor implementation of the HACCP
livestock, dairy products, poultry, fruits, vegetables, and   regulation along with evaluating very small meat and
grain; and performing weighing and inspection services        poultry establishments’ compliance with HACCP
to ensure the standards are met.                              requirements. In addition, we will conduct work to
                                                              review the egg processing inspection activity.
In 1998, the Department, through FSIS, implemented a
major change to its food safety system and created a
new regulatory system for meat and poultry safety               For the second half of FY 2003, OIG issued one
within the meat and poultry plants it regulates. The            audit report relating to protecting the U.S. food
Pathogen Reduction and Hazard Analysis and Critical             supply and agriculture. For the full fiscal year, OIG
Control Point (HACCP) rule is the centerpiece of the            issued three audit reports. OIG’s investigations for
new regulatory approach because it mandates HACCP,              the second half of FY 2003 yielded 12 indictments,
sets certain food safety performance standards,                 10 convictions, and $4.5 million in monetary
establishes testing programs to ensure those standards          results. For the full fiscal year, OIG results totaled
are met, and assigns new tasks to inspectors to enable          18 indictments, 15 convictions, and $4.5 million.
them to ensure regulatory performance standards are
met. In 2000, OIG reported on FSIS’ implementation of
HACCP, concluding that while FSIS had taken positive
                                                               FOOD SAFETY
steps in its implementation of the science-based
HACCP system, HACCP plans were not always
complete; FSIS needed to place greater emphasis on            ConAgra Recall Exposed Weaknesses in FSIS
pathogen testing; and it needed to define its oversight       Recall Operations
role in the HACCP system, and hold plants accountable
for noncompliance. During 2002, USDA experienced              At the request of the Senate Committee on Agriculture,
some of the largest recalls in its history. OIG’s reviews     Nutrition, and Forestry, we performed an audit of the
of two of these recalls in the past year indicate that        Food Safety and Inspection Service’s (FSIS) oversight
FSIS still faces significant challenges to ensure the         of the recall by the ConAgra Beef Company (ConAgra)
successful implementation of HACCP. Most critical to          of 18 million pounds of ground beef and beef products
this process are FSIS’ assessment of plant HACCP              suspected of being contaminated with Escherichia coli
plans and resolution of any deficiencies; establishment       (E. coli) O157:H7. Beginning in mid-June 2002, at least
of management controls to accumulate and analyze              46 people in 16 States became ill from contaminated
data to monitor and assess the adequacy of food safety        meat. About 1 month earlier, FSIS’ microbiological tests
systems; establishment of criteria to initiate enforcement    of ground beef at a meat grinder that used product
actions; baseline studies to define the goals, objectives,    supplied by ConAgra identified the presence of E. coli


                                                                                                                         7
O157:H7. ConAgra officials agreed to an initial voluntary     and did not review other test results that were
recall of about 354,000 pounds of ground beef produced        available to them. Under FSIS policy, plants like
in late May of that year. A subsequent FSIS review of         ConAgra that performed their own pathogen tests as
ConAgra records showed that beef product from that            a part of HACCP were exempt from FSIS testing, and
plant had been testing positive for E. coli O157:H7 as        those tests ConAgra performed apart from HACCP
early as April 12 and as late as July 11. The recall was      were not directly presented to FSIS for review. None
consequently expanded to include about 18 million             of the tests taken by ConAgra for HACCP purposes
pounds of beef product.                                       in 2001 and 2002 showed the presence of E. coli
                                                              O157:H7, while at least 63 of the tests taken for non-
We evaluated the effectiveness of USDA’s management           HACCP purposes in 2002 did. FSIS inspectors did
and oversight of the recall of ConAgra product. We also       not pursue the non-HACCP test results because they
determined whether FSIS was aware of potential                determined FSIS had no clear authority to review
problems at ConAgra prior to the recall and whether           non-Government tests even though they knew those
FSIS and ConAgra operated in accordance with                  tests showed the presence of the E. coli pathogen.
HACCP requirements. Our audit found that neither              On April 18, 2003, FSIS issued a notice that
ConAgra nor FSIS effectively fulfilled their                  instructed inspection personnel to collect raw ground
responsibilities under the Hazard Analysis and Critical       beef samples whenever they received a request, and
Control Point (HACCP) system. ConAgra did not design          the notice no longer permitted plants exemptions
or reassess its food safety system to ensure it operated      from sampling for E. coli based on plants conducting
in compliance with sanitation standard operating              their own tests.
procedures (SSOP) and HACCP requirements. Data
was available to both ConAgra and FSIS in the period        • Reanalysis of Hazards Was Lacking. In designing its
prior to the recall that indicated E. coli O157:H7            HACCP system, ConAgra management assumed
contamination was becoming a continuous problem at            that E. coli O157:H7 contamination was not likely.
ConAgra. FSIS inspectors did not recognize and/or             Consequently, the ConAgra HACCP system was
respond to these indicators but instead followed FSIS         unprepared to respond to the actual hazards that
policies that effectively limited the documents the           could and did present themselves. FSIS regulations
inspectors could review and the enforcement actions           require that a plant reassess its HACCP system
they were allowed to take.                                    when food safety hazards are found in the finished
                                                              product.
FSIS needs to be more proactive in its oversight by
seeking access to available sources of data and               ConAgra did not perform a reassessment of its
analyzing, on an ongoing basis, the data’s importance         HACCP system, even though its tests were showing
as indicators of problems that could impact food safety.      an increasing presence of E. coli O157:H7
Also, FSIS needs to reassess its management and               contamination. FSIS plant inspectors were aware of
oversight of the recall process. The recall was               some of ConAgra’s tests, but they believed that
ineffective and inefficient because adequate controls         because the tests were not part of the HACCP
and processes were not in place to timely identify the        program, they could not use the test results to force
source (establishment) of the contaminated product or         ConAgra to reassess its HACCP system.
provide reasonable assurance that recovery of the
recalled product was maximized or enforcement actions       • Enforcement Actions Were Indecisive. Before the
taken, as necessary. As of the end of January 2003,           recall, FSIS issued multiple noncompliance
only about 3 million pounds of the 18 million pounds of       notifications to ConAgra for fecal contamination of
recalled product had been recovered. The majority of          product (the source of E. coli), but it took no decisive
the beef was not returned or accounted for.                   enforcement action. Instead, it continually allowed
                                                              ConAgra to introduce superficial stopgap measures,
• Pre-Recall Indicators Showed Problems. The Hazard           such as increasing supervision or retraining an
  Analysis and Critical Control Point (HACCP) program         employee. The actions taken by ConAgra did not
  generally requires FSIS to test for E. coli O157:H7 at      provide assurance that the physical and biological
  plants producing ground beef. We found that FSIS            hazards to the production process had been
  inspectors at ConAgra did not perform their own tests       identified and controlled. The inspectors continued to



8
  issue citations because FSIS has not established             acid in ground beef may raise the cooking
  criteria for determining when repeat violations              temperature necessary to destroy the E. coli
  warrant taking additional enforcement action or              O157:H7 contaminant.
  require a plant to reassess its HACCP plan.
                                                             • Monitoring Needs To Be Proactive. The recall of
• Both FSIS and Beef Processors Were Unprepared                ConAgra beef products might have progressed more
  for a Recall. Although FSIS encourages all                   effectively if FSIS had provided closer monitoring of
  establishments to prepare recall plans, HACCP plans          ConAgra and the establishments that processed its
  for two of the grinders using ConAgra beef did not           beef. Primarily, FSIS needed to ensure the
  address recall procedures. One of these grinders             establishments’ HACCP plans were technically
  was unable to readily determine from its records             sufficient to ensure compliance with HACCP and
  which of its customers received the recalled product.        Standard Sanitation Operating Procedure
                                                               requirements. HACCP plans at all three of the plants
  FSIS policies added to the inefficiency of the recall by     we reviewed for this audit did not adequately address
  impeding the inspectors’ ability to trace a                  all food safety hazards.
  contaminant from the grinder’s establishment back to
  the supplier. Concurrences needed before traceback           FSIS officials stated that the FSIS in-plant personnel
  samples could be tested contributed to a 7-day delay         performing most of the reviews of HACCP plans were
  in the recall and added to the quantity of beef product      not sufficiently trained and, therefore, not technically
  recalled.                                                    competent to make accurate assessments of the
                                                               plans. In 2000, FSIS started a program to hire and
  • FSIS had imposed no specific requirement that              train a staff of technically competent personnel, and
    plants keep production or distribution records.            by the end of 2002, it had about 105 individuals
    Poor records at the establishments that used               available to review the more than 5,000 HACCP
    ConAgra beef increased the difficulty FSIS had in          plans at federally inspected plants. However, even
    tracking the further distribution of the ground meat.      with the program in place, FSIS does not want or
                                                               plan to have approval authority over establishment
  • Reviews designed by FSIS to determine the                  HACCP plans.
    effectiveness of the recall (whether distributors
    were notified and distribution was stopped) were         FSIS oversight needed strengthening in other key
    not used to exercise control over the recall             areas:
    process because they were performed too late
    and problems found received limited management           • FSIS guidance to reinspect carcasses when fecal
    attention.                                                 contamination is observed is not clearly announced
                                                               in FSIS’ written policy, but rather is expressed
  • Even though 67 of the 490 effectiveness checks             obscurely in the model generic Beef Slaughter
    we reviewed indicated that distributors and others         HACCP plan. We noted at least 1 case where
    in the distribution chain had not been notified of         175 beef carcasses at ConAgra may have been
    the recall, FSIS district managers determined the          contaminated with fecal matter and were not
    recall was a success because, to their knowledge,          reinspected.
    no one consuming the unrecovered product
    became ill.                                              • FSIS’ current random nationwide sampling of plants
                                                               for the presence of E. coli O157:H7 does not verify
  During the recall, ConAgra altered its HACCP                 the effectiveness of HACCP systems and does not
  process by introducing lactic acid into the production       measure the extent of a hazard. We concluded that
  of ground beef to control the E. coli O157:H7                the sampling should be based on the risk posed by
  contaminant. FSIS approved the use of the acid but           individual plants.
  did not adequately document how it determined that
  lactic acid was an appropriate antimicrobial               • FSIS has no written procedures that require FSIS
  intervention in ground beef. We found scientific             personnel to take control of or monitor beef that has
  evidence in two ARS studies that the use of lactic


                                                                                                                       9
     tested positive for E. coli O157:H7. FSIS allowed       oversight to ensure a safe and wholesome food supply.
     ConAgra to resell contaminated beef without verifying   These actions are consistent with the Department’s
     that the buyers would not reuse it as raw ground        vision statement, issued in July 2003, that set out its
     product.                                                core goals to improve the safety of U.S. meat, poultry,
                                                             and egg products and to better protect public health.
We concluded that two conditions were material internal      These goals are (1) improve the management and
control weaknesses: (1) FSIS lacked a process to             effectiveness of regulatory programs; (2) ensure that
accumulate, review, and analyze all data available to        policy decisions are based on science; (3) improve
assess the adequacy of food safety systems; and              coordination of food safety activities with other public
(2) accurate assessments of HACCP plans had not              health agencies; (4) enhance public education efforts;
been made because FSIS lacked sufficient, competent          and (5) protect meat, poultry, and egg products against
staff to make those assessments.                             intentional contamination.

We recommended that FSIS 1) provide clear authority          Supermarket Employee Poisons Meat
to ensure that it has access to all plant pathogen and
microbial testing results; 2) make recall activities more    On September 19, 2003, a former meat cutter in
effective by ensuring that ground beef is readily            Michigan was sentenced in Federal court to 9 years in
traceable from manufacturing to point-of-sale; 3) issue      prison, followed by 3 years of supervised release, and
regulations to provide clear directions on traceback         ordered to pay $12,161 in restitution. As previously
samples; 4) establish a management control process to        reported, a Federal grand jury indicted the meat cutter
accumulate, review, and analyze all data available to        in February 2003, charging him with poisoning meat
the agency; 5) increase supervision and oversight of         with an insecticide and poisoning meat to seriously
ConAgra until the plant demonstrates it is capable of        injure a business. The charges stem from an
sanitary and wholesome production; 6) ensure that            investigation conducted by OIG, the FBI, and local
inspectors acceptably apply HACCP requirements; 7)           health authorities after approximately 130 consumers
define the goals, objectives, and methods of its E. coli     returned product or complained of sickness after eating
O157:H7 testing program and ensure that the program          ground beef purchased from a supermarket in Michigan
is risk-based and includes performance measures; and         in early January 2003. Ninety-two people who ate the
8) instruct FSIS inspection personnel to take control of     contaminated hamburger reported acute symptoms
E. coli O157:H7 adulterated product and verify that          including burning in the mouth and lips,
product is properly processed or destroyed.                  lightheadedness, dizziness, nausea, and vomiting.
                                                             Preliminary lab results indicated the contaminant to be
During the recall and audit, FSIS took a number of           nicotine, and meat tampering was suspected. Further
actions to strengthen its inspection procedures. In          investigation disclosed that the meat cutter
October 2002, FSIS informed establishments producing         contaminated approximately 250 pounds of ground beef
raw beef products of the need to reassess their HACCP        with Black Leaf 40, a pesticide containing nicotine,
plans, based on the assumption that E. coli O157:H7 is       because of ongoing disagreements with co-workers in
a hazard reasonably likely to occur at all stages of the     the meat department at the store. He said he had hoped
process. FSIS has also begun comprehensive food              that his action would result in his co-workers being
safety assessments to evaluate the adequacy of               disciplined or fired.
HACCP plans and food safety systems. These
assessments are critical to the success of HACCP.            Meat Firm and Officers Plead Guilty to Selling Rat-
                                                             Infested Meat
In response to the audit, FSIS stated that the agency
had already recognized many of the issues reported           A Los Angeles corporation, its president, and its
and is committed to making cost-effective improvements       warehouse manager were placed on probation and
in its inspection programs. FSIS will continue to            were fined more than $105,000 after they pled guilty to
strengthen its programs with updated policy and              selling and offering to sell adulterated meat food
guidance, base policy decisions on science, provide          products for human consumption. Our joint investigation
supplemental training for field personnel, increase          with FSIS Compliance disclosed that the company,
accountability, and provide better supervision and           which was engaged in the business of purchasing,



10
storing, and selling meat and poultry products in           Two Illegal Cockfighting Rings in Bronx, New York,
commerce to retail customers, had sold adulterated          Raided
meat and poultry product that had been gnawed by and
otherwise contaminated by rodents.                          In January 2003, OIG special agents, law enforcement
                                                            officers of the New York City Police Department, and
                                                            agents of the American Society for the Prevention of
 SAFETY OF PRODUCTION AGRICULTURE
                                                            Cruelty to Animals jointly raided a cockfighting operation
                                                            in progress in the Bronx, New York. Approximately 137
Prompted by an outbreak of Exotic Newcastle Disease         people were either arrested or summoned, and 38
(END) in the Southwestern United States, OIG began          fighting cocks were seized. We conducted another raid
an initiative to investigate criminal activity that could   operation in April 2003 in which 84 people were either
contribute to further outbreaks and spread of END, one      arrested or summoned and 144 fighting cocks were
of the most infectious poultry diseases. OIG’s initiative   seized.
employed a two-prong approach to target (1) actual
cockfighting activities and (2) the smuggling of fighting
cocks into the United States. Smuggling in turn can
result in the introduction of dangerous diseases into the
United States, because the animals being smuggled are
not inspected or quarantined to guarantee their health.
Details of several of our recent cockfighting cases
follow.

More than 4,700 Fighting Cocks Seized in Northern
California; 24 Subjects Arrested

An OIG special agent, working undercover, developed
the probable cause for the issuance of 3 search
warrants that resulted in law enforcement agents
seizing more than 4,700 fighting cocks in 3 raids in
northern California in 2003. Also as a result of these
search warrants, California state criminal charges were     Dozens of dead fighting cocks. OIG photo.
filed against 24 individuals for “owning, keeping, or
training animal(s) for fighting.” Seven of the charged      New Mexico Man Caught Smuggling Five Fighting
individuals have been sentenced, 2 are fugitives, and       Cocks Into United States From Mexico
the remaining 15 subjects are awaiting trials. Also
seized during the searches were several firearms and a      On January 14, 2003, a New Mexico man tried to
large quantity of cockfighting paraphernalia. Most of the   smuggle five live fighting roosters from Mexico into the
fighting birds have since been destroyed. This joint law    United States near the Columbus, New Mexico, port-of-
enforcement operation also involved Napa County,            entry. An accomplice handed the roosters over from the
California, sheriff’s deputies, as well as sheriff’s        Mexican side of the fence to him. He placed the crate of
deputies and animal control officers from several other     roosters in his truck and was driving toward his home
California counties. The Humane Society of the United       when he was stopped by Border Patrol agents and
States helped coordinate the operation. This operation      interviewed. He confessed that he had smuggled the
was particularly significant because fighting cocks         roosters into the United States because he knew it was
contributed greatly to the spread of END in southern        illegal to bring in live birds. He also stated that he was
California and other Southwestern States in late 2002       bringing the roosters into New Mexico for fighting
and early 2003.                                             purposes. The man later pled guilty to failure to obtain
                                                            an import permit and was ordered to pay a $475 fine.




                                                                                                                    11
Public Corruption


A continuing priority for OIG is the investigation of       Visa Fraud Ring Involving USDA Employee
alleged criminal acts by USDA employees involving           Uncovered
USDA programs and operations. The percentage of
wrongdoers is small, but to maintain the public trust,      A former Senior Agricultural Economist for the USDA
those who commit crimes must be brought to justice.         Economic Research Service has pled guilty to charges
Descriptions of some recent investigations follow.          of conspiracy to commit visa fraud and has agreed, as
                                                            part of the plea agreement, to remit to the Government
                                                            approximately $82,000 that he obtained as a result of
     During the past 6 months, public corruption            his role in the scheme. This economist, working with
     investigations resulted in 10 convictions of current   others, arranged for Chinese nationals to fraudulently
     or former USDA employees and 31 personnel              obtain visas to illegally enter and remain in the United
     actions. OIG’s investigations for the second half of   States. Although they were not agricultural specialists,
     FY 2003 also yielded 14 indictments and $209,980       the Chinese nationals received letters of invitation on
     in monetary results. For the full fiscal year, OIG     USDA letterhead to enter the United States as part of a
     results totaled 26 indictments, 21 convictions, and    Government delegation of agricultural specialists. Each
     $3.2 million.                                          immigrant paid $10,000 for costs associated with
                                                            obtaining the visas. As a result of the scheme, from late
                                                            1999 through April 2002, 99 Chinese immigrants
Former RD State Director Sentenced to Prison Term           improperly entered and remained in the United States.
for Bribery                                                 The U.S. Embassy in Beijing, China, denied
                                                            approximately 150 other applicants’ visas when the
In June 2003, the former State Director of Rural            scheme was discovered. Two co-conspirators have also
Development (RD) in Virginia was sentenced to serve         been criminally charged and have entered guilty pleas.
27 months in Federal prison and ordered to pay a fine of    This was a joint investigation with the State Department.
$49,000 after he pled guilty to bribery. OIG’s
investigation revealed that, almost immediately after       Three USDA Employees Sentenced in
taking office, he began accepting cash payments and         Embezzlement Schemes
other financial assistance from real estate developers
who had encouraged him to apply to become State             • In Minnesota, a former Animal and Plant Health
Director. During his tenure as State Director, he             Inspection Service (APHIS) accounting clerk pled
accepted more than $60,000 from various real estate           guilty in Federal court to embezzling $48,599 in
developers doing business with USDA and gave them             APHIS program payments and was sentenced to
favorable treatment in return. He was indicted in             serve 16 months in prison, followed by 3 years of
December 2002 on one bribery count for accepting              probation. The subject used identification cards that
$32,000 from the president of a Texas development             he obtained from homeless people to create fake
company in August 1999. In return, the former State           veterinarians in the APHIS computer system and
Director allowed the company to continue to manage            then authorized the issuance of payments to the fake
USDA-financed housing projects, even though a 1995            veterinarians for nonexistent services. He retrieved
OIG audit had shown that the company had skimmed              the fraudulent APHIS program checks from a post
funds from numerous projects. The developer skimmed           office box that he opened as part of the scheme. In
an additional several hundred thousand dollars from his       addition to the prison sentence, he was ordered to
Virginia housing projects after the audit. (The developer     pay a $100 special assessment fee and restitution of
died before the investigation uncovered his involvement       $48,599.
in the bribery scheme.) This case was worked jointly
with the FBI.




12
• In June 2003, a former Forest Service
  telecommunications specialist in Arkansas was
  sentenced to 6 months of home detention and 5
  years of probation, and ordered to pay $12,500 in
  restitution and a $20,000 fine. He had pled guilty to
  charges of theft of Government money and making
  false statements in conjunction with the unauthorized
  use of his Government-issued credit card. From late
  1998 to about April 2001, the employee was
  responsible for purchasing radio equipment for the
  FS. However, he purchased approximately $70,000
  in items not related to his job, including a digital
  camera and computers.

• Also in June 2003, a Farm Service Agency (FSA)
  Acting County Executive Director in Maine pled guilty
  to converting to her own use $22,150 in FSA funds.
  She was subsequently fired, and in August 2003 was
  sentenced to home confinement, 5 years of
  probation, and restitution of $22,150.




                                                          13
Rural Development (RD)


One of our agency-specific management challenges             determine whether there is any pattern or substance to
addresses the fact that improvements and safeguards          the numerous hotline complaints that OIG-Investigations
are needed for the Multi-Family Housing (MFH)                has received concerning allegations of inaccuracies and
program, which comes under the purview of the Rural          improprieties involving CSC servicing actions.
Housing Service in the Rural Development mission
area. A substantial portion of RHS’ current Rural Rental     Finally, we will again audit RD’s FY 2004 financial
Housing (RRH) loan portfolio involves properties over        statements and continue to monitor the contracted audit
20 years old. RHS faces a major challenge to maintain        work for the Rural Telephone Bank financial statements.
its portfolio in good repair so that it will continue to
provide safe, decent, and affordable housing for low- to
moderate-income rural residents. RHS needs to                  For the second half of FY 2003, OIG issued 11
address several challenges in its management of the            audit reports relating to Rural Development. For
MFH program. RHS needs to inspect and repair its               the full fiscal year, OIG issued 20 audit reports.
aging portfolio; accurately report to Congress the units       OIG’s investigations for the second half of FY
built in its guaranteed MFH program; plan for future           2003 yielded four indictments, six convictions, and
increases in rental assistance costs; implement wage-          $523,977 in monetary results. For the full fiscal
matching to identify excessive rental assistance costs;        year, OIG results totaled 17 indictments, 16
fairly use equity incentives to keep RRH projects in the       convictions, and $21.6 million.
program; and continue to implement regulatory and
other internal controls to address deficiencies that have
been identified in the program.
                                                              RURAL BUSINESS-COOPERATIVE
                                                              SERVICE (RBS)
For FY 2004, we will continue to review the RHS MFH
program. We plan to audit RHS’ management
operations of the MFH program to determine if RHS            RBS Needs To Take Action To Reduce Losses in the
implemented corrective actions to identify unauthorized,     B&I Loan Program
ineligible, or fictitious project expenses, particularly
those that involve identity-of-interest companies. We        After OIG’s comprehensive review, we issued an audit
also plan to audit RRH construction and rehabilitation       report that summarized the results of 21 audits
costs to ensure that the costs were actually incurred        performed in 16 States to disclose recurring issues that
and were for authorized purposes. Both audits will           need to be addressed by the RBS’ national office in the
follow up on previous nationwide reviews of the MFH          Business and Industry (B&I) loan program. We
program.                                                     examined 38 guaranteed loans totaling over $125
                                                             million and 18 direct loans totaling over $14 million. We
More work is scheduled for the MFH program involving         questioned $58 million in guaranteed loans and $5.8
expansion of the RRH tenant certification audit in           million in direct B&I loans.
Florida to a nationwide review of the accuracy and
eligibility of RRH tenant subsidies. In our reviews of the   We identified instances where RD had guaranteed
MFH program, we will utilize our increasing expertise        questionable loans, failed to identify lender negligence
with RHS’ database systems to identify potential             in servicing existing loans, and honored guarantees in
problems and trends that may indicate fraud, waste, or       situations where lenders had not fulfilled loan
abuse.                                                       obligations. We attributed these conditions to
                                                             inappropriate appraisal methods used to determine the
In late 2003, we also initiated a review of RHS’ servicing   value of loan collateral, and to inadequate lender
of its Single Family Housing Program and accuracy of         assessments of borrowers’ financial conditions when
borrowers accounts, which is conducted at the                loans were guaranteed and on an annual basis
Centralized Servicing Center (CSC) in St. Louis,             thereafter. Rural Development also lacked effective
Missouri. The ongoing work will include an assessment        procedures to enforce compliance when lenders failed
of CSC’s servicing actions and how the automated             to meet agency requirements. In addition, RD officials
systems support these functions. We also plan to             had not always verified that lenders complied with
                                                             agency requirements prior to honoring loan guarantees.



14
As a result, agency officials were unaware of lender         RBS disagreed with the report recommendations, with
negligence until our review.                                 the exception of using State loan committees to review
                                                             liquidated loss loans, and the need for implementation
Rural Development and OIG have identified conditions         of improvements to the accuracy of annual performance
in the past that are similar to those disclosed during our   reports. We are in the process of responding to their
current review. Since 1980, OIG has issued 46 such           concerns.
audit reports with monetary findings of over $224
million. With more than $4.7 billion in loan guarantees,     Lender Misrepresents Use of Loan Proceeds and
RD needs to ensure that lenders are making sound             Provides Negligent Servicing of B&I Loan
loans and properly monitoring borrower financial
conditions to reduce the risk of significant losses to the   At the request of the RBS national office, we conducted
Government. However, the results of our review may           a review of a guaranteed B&I loan made to a tomato
not accurately indicate the extent of problems in the B&I    cooperative in Arkansas. This audit was conducted after
Guaranteed Loan Program because 55 percent of the            the completion of our national audit of the B&I program.
loans we reviewed were delinquent.                           We found that the lender misrepresented key financial
                                                             information and inadequately serviced nine loans
Rural Development’s annual performance reports also          totaling over $9.6 million for the cooperative. The
inaccurately depicted the number of jobs created and         borrower defaulted, resulting in a potential liability to
saved by the B&I Guaranteed Loan Program. The                RBS of over $7.4 million (about $7 million remaining
agency reported program results based on borrower            guarantee plus about $448,000 accrued interest). The
projections, rather than the actual number of jobs           lender has filed a loss claim.
created and saved by the program. In addition, the
agency’s data collection and input controls did not          Our audit found that the lender processed guaranteed
ensure the accuracy of reported results.                     loans to an ineligible borrower, improperly allowed the
                                                             borrower to use guaranteed funds to pay delinquent
We found that RD lacked effective measures to enforce        Federal debt, allowed the borrower to use guaranteed
borrower compliance with agency requirements, such           loan funds for unauthorized purposes, and failed to
as borrowers providing current financial statements and      adequately supervise construction of facilities financed
insurance coverage. We also found weaknesses in              with loan proceeds. As a result, the borrower built
collateral appraisals, procedures to verify the existence    facilities that did not conform to plans approved by RBS.
of collateral, and procedures to file required legal         The lender falsely represented to RBS that these
documents. However, since the B&I Direct Loan                conditions did not exist. In addition, the lender allowed
Program is no longer being funded, we did not                the borrower to divert $6 million in working capital away
recommend any corrective action for direct loanmaking.       from the cooperative for personal use. These conditions
                                                             eventually led to the failure of the cooperative.
We recommended that RD establish guidelines to
(1) better identify the most appropriate appraisal           We recommended that RBS, after consultation with
methods used to value collateral, (2) verify that lenders    OGC, take actions to contest the guarantees, or
use the most appropriate appraisal method, (3) require       substantially reduce the remaining balance of the loan
that lenders use audited financial statements to perform     note guarantees. RBS agreed with our recommendation
financial analyses of borrowers, (4) enforce lender          and on August 29, 2003, notified the lender that it will
compliance with critical agency oversight controls, (5)      not honor loan note guarantees totaling over
require annual lender visits for all new and delinquent      $6.9 million of principal and $448,000 of interest.
borrowers, and biennial lender visits for current
borrowers, and (6) define deficiencies that classify loans   RBS Should Improve Controls To Minimize
in significant nonmonetary default and require               Liquidation Losses on Guaranteed B&I Loans
acceleration of all loans in that classification. We also
recommended that the agency require that the loss            We conducted a review of the process used by RBS to
claims be evaluated by State loan committees. Further,       liquidate defaulted B&I loans. We reviewed the files for
we recommended specific procedures that would                10 judgmentally selected (highest dollar loss) liquidated
improve the accuracy of RD’s annual performance              loans with final loss payments in fiscal year 2001. We
report.

                                                                                                                    15
conducted our review at 7 RBS State offices and at 10          The State had not implemented wage and benefit match
lenders’ offices. The loans accounted for about $13.1          provisions, and supervisory reviews were generally not
million out of $25.5 million in total final losses for 2001.   of sufficient depth to detect the material problems
We found no material weaknesses in RBS’ controls over          identified by the audit. We statistically estimated that
B&I loan liquidation.                                          tenant certifications for 2,583 (20.8 percent) of the
                                                               14,705 units contained errors in households (including
Nevertheless, about $818,000 could have been saved if          those of apparent illegal aliens) receiving improper
RBS had improved controls. For four loans, lenders             rental subsidies totaling about $4.7 million
either did not file estimated loss claims or filed them        (overpayments of $4.4 million and underpayments of
late, resulting in almost $582,000 in excess interest          about $271,000). The primary cause for the improper
costs to the Government. For three loans, RBS                  subsidies was that tenants did not accurately report
improperly authorized about $199,000 in protective             their incomes at certifications or they did not notify the
advances (for security, maintenance, etc., to protect the      project managers of subsequent changes. The project
collateral at liquidation), resulting in excessive interest    managers did not have an independent source, such as
expenses of about $16,000. RBS approved final loss             wage and benefit matching, to verify household income,
claims that contained errors for two loans reviewed            and RD had not fully implemented controls over the
either because agency procedures were inadequate or            tenant certification process to monitor and improve the
staff did not follow established procedures, resulting in      quality of certifications.
excess final loss payments of about $45,000. For one
loan, the lender did not provide supporting                    We made a series of recommendations regarding the
documentation for about $194,000 worth of protective           SO’s oversight and monitoring of the tenant certification
advances plus accrued interest. Since the Government           process, including substantially expanding the use of
guaranteed 90 percent of this loan, the final excess loss      wage and benefit matching and more substantive
claim totaled almost $175,000.                                 supervisory reviews. In addition, we recommended that
                                                               the SO (1) establish a claim and collect the
We recommended that RBS (1) establish a control to             overpayments from the households in our sample who
ensure that lenders timely submit estimated loss claims        received excess benefits and (2) review the tenant
after RBS approves their liquidation plans, (2) clarify        certifications for all 80 units at 1 project where the
when State office staff should authorize protective            manager failed to follow RD certification procedures,
advances, (3) direct State office staff to recover about       determine the amount of overpayments, and recover
$45,000 from lenders for errors on final loss claims, (4)      them.
direct State office staff to recover about $175,000 for
unsupported protective advances after consulting with          The SO generally agreed with four of the report’s seven
OGC, and (5) direct State office staff to obtain and           recommendations. These recommendations addressed
review supporting documentation when claimed                   (1) reviewing and recovering overpayments questioned
liquidation expenses and protective advances surpass a         in the report, (2) working with the Florida Department of
predetermined amount. The agency concurred with our            Law Enforcement and the Florida Department of Labor
findings and recommendations.                                  and Employment Security to permit wage and benefit
                                                               matching information sharing with project managers,
                                                               and (3) developing procedures for project managers’
 RURAL HOUSING SERVICE (RHS)
                                                               verification of applicants’ citizenship or legal alien
                                                               status.
Rental Subsidy Payment Errors Exceeded $4.7
Million in Florida’s RRH Program                               The SO disagreed with the other three
                                                               recommendations. They addressed (1) requiring wage
We evaluated the Florida State Office’s (SO) controls          matches on all households at both initial certifications
over the tenant eligibility determination process in the       and annual recertifications, (2) developing additional
Rural Rental Housing (RRH) Program and accuracy of             procedures and guidelines for (a) RD staff to follow
rental subsidy payments to borrowers on behalf of low-         when conducting supervisory reviews and (b) project
income tenants. As of April 2002, RRH provided rental          managers to follow when forecasting tenants’ annual
subsidies to 327 projects with 14,705 rental units of          incomes.
which 10,326 units received rental assistance.

16
We evaluated the SO comments on the three
                                                            RURAL UTILITIES SERVICE (RUS)
recommendations, and our basic position remains
unchanged.
                                                           RUS Did Not Maximize Leverage of Limited Water
Louisiana Developer and Four Associates Forfeit            and Waste Grant Funds With Private Sector
Gold Coins, Sentenced for Equity Skimming
                                                           RUS did not leverage limited grant and loan funds for
A major real estate developer has been sentenced to        maximum benefit to proposed water and waste projects
serve 5 years in Federal prison and ordered to pay fines   in rural areas. For example, RUS did not limit grant
and restitution of $3.7 million. The developer and his     subsidies to only the most needy applicants. As a result,
associates devised a scheme to skim several million        we statistically estimated that, during a 4-year period,
dollars from RRH and U.S. Department of Housing and        grant funds totaling about $85.5 million were provided
Urban Development (HUD) properties owned by the            unnecessarily to 97 projects. In addition, we estimated
subject and others by having contractors submit inflated   that RUS made concurrent loans totaling about $97.9
invoices for work done at the properties. The subject      million to projects that could have been financed with
obtained the funds paid for the inflated costs from the    private credit. RUS procedures did not allow private
contractors and converted those funds, which had been      lender funding for the loan portion of projects where the
“skimmed” from the equity of the property, into gold       agency determined grants were a necessary part of
coins. During the investigation, we seized 1,599 gold      project funding. We estimated that 169 grant recipients
coins valued at nearly $600,000, as well as an             received RUS loan funding, totaling about $163.3
investment account totaling $1.288 million. The gold       million, which could have been financed by commercial
coins and investment account were forfeited to the         lenders if RUS procedures allowed decoupling of grant
Government. The associates and one of the developer’s      and loan funding. In addition, we projected that
corporations also have been sentenced. The sentences       inadequate tests for other credit were completed for
ranged from probation to 5 months in Federal prison,       286 projects receiving grants totaling about $325.4
with fines and restitution totaling over $700,000.         million.

                                                           We recommended that RUS discontinue its current
                                                           policy of making grants contingent on RUS loans being
                                                           used to finance the balance of project costs and that
                                                           RUS work with private creditors. In addition, we
                                                           recommended that RUS revise current policy and
                                                           require proposals from nationwide investment lenders to
                                                           be solicited and analyzed before it considers each
                                                           future grant obligation. Also, we recommended that
                                                           RUS establish Government Performance and Results
                                                           Act-specific goals for successful referrals of grant
                                                           applicants to private credit and/or participation in joint
                                                           financing with the private sector.

                                                           RUS officials generally concurred with the audit
                                                           recommendations and plan to publish a directive in
                                                           support of maximizing use of grant funding.
Gold coins seized by the Government. OIG photo.




                                                                                                                  17
Two Water Association Circuit Riders Plead Guilty
in False Travel Claim Scam

In April 2001, the National Rural Water Association
(NRWA) informed RD officials that the Executive
Director and wastewater circuit rider for the Nevada
Rural Water Association had resigned, following
discovery of evidence that he had falsified work and
travel claims. (NRWA contracts with local and State
associations to provide technical assistance on water,
wastewater, and solid waste issues for operators and
board members of rural utility systems. USDA, through
RUS, reimburses NRWA for official time and travel
expense claims.) After discussions with RD officials,
OIG conducted an investigation and found that the
former Nevada wastewater circuit rider had submitted
false documentation and claims from 1998 until his
requested resignation in 2001, resulting in improper
payments to him of more than $50,000. The Nevada
water circuit rider (a separate employee) had also
submitted false documentation and claims that resulted
in payments to him in excess of $15,000. The former
wastewater circuit rider pled guilty to mail fraud and was
sentenced to 6 months of home confinement and
5 years of probation, and ordered to pay restitution of
more than $37,000. The water circuit rider, who also
resigned from his position, has pled guilty to one felony
charge of false statements and was sentenced to 120
hours of community service and placed on probation for
3 years.




18
Feeding Programs


The Food and Nutrition Service (FNS) administers the         Operator Ordered To Pay $1 Million in Restitution
Department’s food assistance programs, which include
the Food Stamp Program (FSP); the Child Nutrition            The former operator of a disqualified Chicago retail
Programs (CNP); and the Special Supplemental                 store was sentenced to 27 months of incarceration and
Nutrition Program for Women, Infants, and Children           3 years of supervised release. The individual also was
(WIC). These three major entitlement programs will           ordered to pay $1 million in restitution to USDA. The
account for approximately $42 billion in estimated           individual pled guilty to wire fraud for participation in a
expenditures in FY 2004.                                     food stamp benefit trafficking scheme that occurred
                                                             from January 1996 through September 1997.
Since FNS programs have large cash outlays, the
potential exists for fraud and large dollar losses. In FY    Indiana Needs To Improve Controls and Oversight
2004, we will emphasize audits of FNS programs,              Over FSP Costs
particularly FSP, to ensure that critical internal control
checks are in place to guarantee efficiency,                 Our review of the accuracy and allowability of FSP
effectiveness, and economy. We will continue to monitor      administrative costs claimed in Indiana identified
Electronic Benefits Transfer (EBT) systems as they are       unsupported administrative costs of $1.8 million for FY
implemented. Additionally, our plan calls for audits of      2000. The State agency did not have controls in place
FNS’ implementation of revised WIC vendor regulations,       to properly process FSP costs in a consistent and
controls over eligibility for the National School Lunch      accurate manner. The State agency did not provide
Program, and analyses of EBT databases.                      adequate oversight over its local office operations, and
                                                             had not performed a management evaluation review of
                                                             its two largest counties in 7 years. The State agency
  For the second half of FY 2003, OIG issued 13              also did not comply with its approved cost allocation
  audit reports relating to feeding programs. For the        plan. We identified numerous weaknesses with its
  full fiscal year, OIG issued 22 audit reports. OIG’s       methodology to allocate indirect costs through its
  investigations for the second half of FY 2003              random moment sampling time study. Based on the
  yielded 127 indictments, 163 convictions, and              results of our testing, we questioned whether the $79
  $9.3 million in monetary results. For the full fiscal      million charged for FY 2002 FSP expenditures correctly
  year, OIG results totaled 300 indictments, 290             represented actual FSP activity.
  convictions, and $23 million.
                                                             We made recommendations to recover the unsupported
                                                             costs and for the State agency to improve controls over
                                                             the reimbursement and claiming of FSP administrative
 FOOD STAMP PROGRAM (FSP)
                                                             costs. FNS generally agreed with our findings.

Philadelphia Investigation Nets Seven Convictions,
                                                              SPECIAL SUPPLEMENTAL NUTRITION
$3.3 Million Restitution Order
                                                              PROGRAM FOR WOMEN, INFANTS,
                                                              AND CHILDREN (WIC)
OIG special agents have investigated three grocery
stores in the Philadelphia area that fraudulently
redeemed over $3.4 million in paper food stamps and          Husband and Wife Sentenced in WIC-Related
food stamp benefits issued via the EBT system. Seven         Counterfeit Manufacturer Coupon Scam
owners, employees, or associates of these markets
have now been convicted on charges of trafficking in         On March 12, 2003, the primary subject of this
food stamp benefits, money laundering, and conspiracy.       investigation was sentenced to 22 months of
An eighth individual is a fugitive and is believed to have   imprisonment followed by 3 years of probation for his
left the United States. The seven convicted individuals      role in counterfeiting manufacturer discount coupons for
received sentences ranging from probation to 46              the only kind of infant formula approved for use by WIC
months in prison and were ordered to pay more than           recipients in Ohio. He then used these fake coupons to
$3.3 million in restitution to USDA. The IRS participated    purchase the formula throughout Ohio, Kentucky, and
in one of these investigations.


                                                                                                                      19
other areas in the Midwest, and resold it at a profit. After
his sentencing, the defendant was immediately
remanded to the custody of the U.S. Marshal. The
subject’s wife was sentenced to 3 years of probation
and ordered to pay $27,000 in restitution and a $1,000
fine for defrauding FSP and WIC from June 1996 to
September 1998. The subject and his wife were
charged with welfare and WIC fraud conspiracy. The
subject was also charged with income tax evasion and
illegally transporting money out of the United States.
The producer of the infant formula had projected that
the redemption value of discount coupons for the infant
formula would approximate $175,000. With the
counterfeit coupons included, the redemption value for
all coupons exceeded $415,000.

WIC Fraud Conspiracy in Phoenix, Arizona, Involves
Maricopa County Employee

From at least March 2002 through February 2003, an
employee of Maricopa County, Arizona, prepared
fraudulent applications and WIC checks for many
fictitious clients. She and three accomplices pretended
to be those clients in order to obtain infant formula and
other food products from local grocery stores. Another
accomplice resold the formula at a profit. All five
participants in the scheme shared in the proceeds from
the resales. The Maricopa County employee was
sentenced to 15 months of imprisonment, followed by 3
years of supervised release, and ordered to pay
$83,049 in restitution. Two of the accomplices have pled
guilty to conspiracy and await sentencing. The third
accomplice, who was indicted on one count of
conspiracy and eight counts of theft from the WIC
program, is a fugitive from justice.




20
Program Irregularities and Abuses


 FARM PROGRAMS                                                  For the second half of FY 2003, OIG issued five
                                                                audit reports relating to farm programs. For the full
OIG’s Farm Programs work encompasses a variety of               fiscal year, OIG issued six audit reports. For farm-
farm commodity, farm credit, and conservation                   related programs (RMA/FSA), OIG’s investigations
programs administered by the Farm Service Agency.               for the second half of FY 2003 yielded 38
The programs are funded primarily through the                   indictments, 20 convictions, and $8.1 million in
Commodity Credit Corporation, a Government entity for           monetary results. For the full fiscal year, OIG
which FSA provides operating personnel.                         results totaled 68 indictments, 72 convictions, and
                                                                $12.8 million.
Since the new Farm Bill—the Farm Security and Rural
Investment Act of 2002 (the 2002 FSRIA)—was
enacted in May 2002, market conditions have improved,          FARM SERVICE AGENCY (FSA)
and the only major disaster assistance authorized is the
$3.1 billion provided in the Agricultural Assistance Act of
2003 (2003 AAA). The 2002 FSRIA mandated                      Peanut Quota Buyout Program Generally Well
substantial changes in farm program and conservation          Managed
payments; we have been monitoring the effects of those
changes. Total FSA outlays are projected to be about          On May 13, 2002, the Farm Bill eliminated the long-
$19.4 billion in 2003 and $18.2 billion in 2004. FSA’s        standing peanut quota system and enacted the Peanut
2004 budgeted program level is more than 27 percent of        Quota Buyout Program (QBOP) to compensate quota
the Department’s total.                                       holders $0.55 per pound of quota for the loss of asset
                                                              value. For the 16 States with peanut quotas, QBOP
In FY 2004, we will continue monitoring implementation        payments were expected to cost approximately
of the 2002 FSRIA and the 2003 AAA and intend to              $1.3 billion. QBOP payments for the States we
conduct reviews of affected farm programs including the       reviewed, Georgia and Florida, were $535 million and
Milk Income Loss Contract Program, 2001/2002 Crop             $55 million respectively. We selected the two largest
Disaster Program, and Sugar Beet Disaster Program.            payment counties in each State for review. The
Also, as Congress continues to challenge Government           payments in the four counties totaled about
agencies to “do more with less,” we plan to systemically      $96.3 million.
assess the efficiency of certain comprehensive
processes and initiatives administered or undertaken by       QBOP procedures allowed payments to producers who
FSA. Specifically, we will look at FSA’s internal end-of-     were quota holders as of May 13, 2002. At the 4 county
year payment limitation review process, program               offices reviewed, we identified 1,365 payments totaling
compliance activities, and compliance with the Improper       about $9 million made to parties other than the quota
Payments Information Act of 2002. Our more systemic           holders/owners of record reflected in FSA’s farm
approach to work for FY 2004 corresponds with the             records system as of May 13, 2002. This generally was
Department’s comprehensive Human Capital Plan,                due to producers not reporting changes in ownership to
which includes implementing management initiatives            FSA.
both within the agencies and from a corporate
perspective in support of the President’s Management          However, of the 102 payments tested, we questioned
Agenda.                                                       4 payments totaling almost $153,000, made by
                                                              3 service centers, because the payees could not
                                                              provide sufficient proof of ownership. One service
                                                              center generally did not obtain sufficient documentation
                                                              to support payments to parties other than the owners of
                                                              record. The service center made 184 payments totaling
                                                              about $1.4 million to the other parties.




                                                                                                                        21
We recommended that FSA evaluate the four                    audit findings; the expansion (i.e., new types of
questioned payments for eligibility and recovery, as         insurance) and revision of major insurance programs;
appropriate, and have all county offices that made           the reliance placed upon the Federal Crop Insurance
QBOP payments review and certify that they have              Programs by Congress to be the “safety net” for
adequate documentation that payees were eligible             American farmers; and the mandated changes under
quota holders. FSA generally agreed with the                 the Agricultural Risk Protection Act (ARPA).
recommendations.
                                                             As last reported, our FY 2003 audits continued to
North Dakota Insurance Agent/Farmer Sentenced in             disclose problems with RMA’s administration of the
$14 Million Fraud Scheme                                     FCIC programs in the areas of crop loss claims
                                                             (preparation and loss adjustment), producers’ reporting
In an update from our last semiannual report, a North        of production, conflicts of interest within the reinsured
Dakota insurance agent/farmer and two of his farming         companies and/or representatives, and establishment of
entities were convicted for their roles in a scheme to       a reliable quality control system.
defraud USDA and the IRS of more than $14 million.
From 1988 to 2000, the insurance agent created false         One of the initiatives under the President’s Management
farming entities and filed false applications and claims     Agenda is to improve financial performance in
for FSA and RMA benefits. In June 2003, the insurance        Government programs. This initiative includes
agent was sentenced to serve 60 months in prison and         determining agencies’ efforts to determine and reduce
ordered to forfeit $5.9 million to the United States. Both   erroneous payment rates, including actual and targeted
of the farming entities were placed on probation for 5       rates, where available, for benefits and assistance
years. The identification and seizure of assets is           programs over $2 billion. Based on prior and ongoing
currently being conducted.                                   reviews involving RMA, we have identified this initiative
                                                             as a management challenge. To address these
                                                             concerns, major audits of RMA planned for FY 2004
 FEDERAL CROP INSURANCE
                                                             include audits to assess the distribution of insurance
                                                             policies by the insurance companies within the three
Our risk management work encompasses a variety of            insurance pools provided for within the Standard
Federal Crop Insurance Corporation (FCIC) programs           Reinsurance Agreement (SRA), the extent of improper
administered by the Risk Management Agency (RMA).            payments made within the insurance programs, RMA’s
FCIC receives funds from four main sources: capital          renegotiation of its SRA with the insurance companies,
stock subscriptions from the U.S. Treasury, premium          and RMA’s implementation of significant selected ARPA
income from producers purchasing insurance policies,         provisions.
administrative fees paid by producers purchasing
catastrophic risk protection insurance, and
appropriations for Federal premium subsidies and               For the second half of FY 2003, OIG issued two
operating expenses.                                            audit reports relating to risk management. For the
                                                               full fiscal year, OIG issued three audit reports. For
Our work is designed to ensure overall program                 farm-related programs (RMA/FSA), OIG’s
integrity, prevent and detect program/ insurance losses,       investigations for the second half of FY 2003
provide a visible audit presence, ensure program               yielded 38 indictments, 20 convictions, and
objectives are being accomplished, and assist program          $8.1 million in monetary results. For the full fiscal
managers to find solutions for known or potential              year, OIG results totaled 68 indictments, 72
program weaknesses. Emphasis on crop insurance                 convictions, and $12.8 million.
programs is needed because of the significance of prior




22
                                                              common information collection system. In addition, we
 RISK MANAGEMENT AGENCY (RMA)
                                                              recommended that the agencies develop strategies to
                                                              address each of the conditions cited. We also
Improvements Needed in the Data Reconciliation                recommended that RMA obtain written legal opinions as
Process                                                       to whether (1) reinsured companies can be required to
                                                              participate in the data reconciliation process and to
Our review of the Department’s implementation of the          clarify their role and responsibilities in resolving
Agricultural Risk Protection Act of 2000 (ARPA)               identified discrepancies and (2) the limited sampling
concluded that the Risk Management Agency (RMA)               plan being used to address and resolve the
and Farm Service Agency (FSA) initiated reasonable            discrepancies identified during the 2001 reconciliation
actions to implement 19 of 30 significant ARPA                meets the requirements of ARPA.
provisions we identified. For 10 of the remaining 11
provisions, we concluded that the agencies’ actions           The RMA Administrator agreed to obtain the opinions
were not developed enough to adequately assess their          from OGC. However, at this time these opinions have
progress. The remaining ARPA provision required the           not been provided to OIG. RMA generally concurred
Secretary of Agriculture, through RMA and FSA, to             with the audit findings and recommendations.
reconcile at least annually, beginning with the 2001 crop
year, all relevant information received from producers        RMA officials conditionally concurred with the
who obtained crop insurance coverage.                         recommendation to develop strategies for addressing
                                                              each of the 10 conditions cited, including promptly
We determined that the Department had not timely or           completing the 2001 crop year reconciliation and any
effectively performed data reconciliation efforts for         associated corrective actions for all identified
producers that carried crop insurance on their 2001           discrepancies, and to require RMA and FSA to take
crops. A number of factors, including differences in          immediate action to address the methodology to be
agency program definitions and weaknesses in planning         implemented for reconciling and resolving 2002 crop
and coordinating the referral of errors among the             year data. RMA officials stated in their response to the
agencies and reinsured companies, contributed to this         audit report that RMA is in the process of analyzing the
condition. As a result, effectiveness of the reconciliation   conditions cited and the 10 factors outlined in the draft
as a tool to enhance program integrity has been               report, and that they plan to meet with FSA to determine
compromised and the reconciliation process, as it is          the appropriate actions necessary to address each one.
presently being conducted, may not be in compliance           RMA officials stated in their response, dated September
with legislative requirements. We continue to stress that     10, 2003, that they expect to complete this review and
unless a common information system is developed and           provide their response to the recommendation within 60
implemented, the inefficient use of RMA and FSA               days.
resources to meet this legal requirement will remain.
                                                              RMA officials also conditionally concurred with the
We recommended that RMA and FSA, in consultation              recommendation to include the issues identified by the
with the Under Secretary for Farm and Foreign                 report, as well as any corrective actions taken or
Agricultural Services, establish an executive-level task      contemplated to address OIG’s recommendations, in
force to develop plans for reengineering the                  RMA’s next annual report to Congress. RMA officials
Department’s data reporting for each producer,                stated in their response to the audit report that RMA
landowner, and policyholder under an integrated               plans to include a discussion on the Data Reconciliation
                                                              Process in its next annual report to Congress.




                                                                                                                    23
Financial Management and Accountability


In FY 2003, we performed audits or provided oversight
                                                             DEPARTMENTAL ADMINISTRATION
of audits of the FY 2002 financial statements for CCC,
                                                             (DA)/OFFICE OF THE CHIEF FINANCIAL
FCIC, FNS, FS, and the RD mission area, including the
                                                             OFFICER (OCFO)
Rural Telephone Bank (RTB), as well as the FY 2002
consolidated USDA financial statements. All entities
received an unqualified opinion. An audit of the FY 2001    Controls Over the Travel Card Program Needed
balance sheet for the Department’s working capital fund     Strengthening
was also completed under contract. An unqualified
opinion was issued within this abbreviated scope.           Internal controls over the individually billed travel card
                                                            account (IBA) program needed to be strengthened at
In addition to financial statement audits, OIG’s work       the time of our audit (issued June 2003). Methods and
encompasses USDA’s implementation of the Improper           measures, such as establishing uniform and consistent
Payments Information Act of 2002. The act requires the      review and monitoring processes, had not been formally
head of each Federal agency with estimated improper         prescribed. The current management of the Office of the
payments in excess of $10 million to report on actions      Chief Financial Officer (OCFO) is working toward
taken to reduce them. OMB defines improper payments         implementing measures to minimize misuse. However,
as payments that should not have been made or that          the conditions we noted stemmed from ineffective
were made in incorrect amounts under statutory,             controls despite certifications from previous
contractual, administration, or other legally applicable    management that those controls had been instituted in
requirements. In FY 2003, we initiated a review of FNS’     response to our prior recommendations in this area. In
adherence with OMB requirements regarding improper          the absence of adequate controls, we found evidence
payments in FSP, WIC, and NSLP.                             that IBA was used improperly.

In FY 2004, we will examine the myriad of USDA              Although we did not identify any significant monetary
payment programs and develop an approach that will          loss to the Department, we estimated that total misuse,
determine whether USDA has controls in place to             to include not using the card when required, totaled
identify and prevent improper payments. For example,        more than $7.7 million. Further, we estimated that more
we will examine RMA’s error rate over crop insurance        than $5.8 million of the nearly $78.5 million charged
claims and conduct an audit of the use of purchase          during the period involved transactions for other than
cards in USDA. In addition, we will review the              bona fide travel-related charges. The most egregious
implementation of the new law from the departmental         activity we noted was use of the travel card when
perspective. Our audit efforts help determine whether       employees were not on authorized travel.
USDA’s financial systems provide accurate and timely
information to the Department’s management. These           We also identified a number of obvious cases of misuse
efforts also determine whether USDA has taken               at various types of vendors, such as a $6,000 purchase
adequate actions to reduce improper payments made           of an automobile and enrollment in a bartending college.
by its programs.                                            Our analysis of 25 individuals who obtained the most in
                                                            cash advances from automated teller machines (ATMs)
                                                            during the scope of the review disclosed that in every
     For the second half of FY 2003, OIG issued one         case they repeatedly abused their IBA privileges by
     audit report relating to financial management and      obtaining excessive cash advances for travel, or when
     accountability. For the full fiscal year, OIG issued   not on travel. Twelve of the twenty-five individuals never
     12 such audit reports.                                 traveled for official Government purposes, yet their card
                                                            usage amounted to almost $196,000 during the review
                                                            period. Several individuals acknowledged using the
                                                            withdrawn funds first to pay personal debts and then to
                                                            repay the bank, thereby paying for unauthorized
                                                            withdrawals with subsequent unauthorized withdrawals
                                                            and creating a kiting scheme.




24
As a result, improper charges, if unpaid, could
negatively impact the Department in the form of lost
rebates from the contractor bank. We also found that
agencies took inconsistent disciplinary actions when
they identified misuse; this was traceable to the lack of
specific travel card policy/guidance issued by DA.

OCFO and various agencies took action to improve the
travel card program in response to our interim
disclosures. We recommended that OCFO officials
formally promulgate the interim measures that they
have enacted to ensure permanent and lasting
corrective action. OCFO issued departmental guidance
that established a “zero-tolerance” policy for card
misuse, lowered ATM cash advance limits, standardized
lower credit limits on USDA travel cards, deactivated or
canceled travel cards of infrequent travelers, and
blocked transactions from non-travel-related merchants.
Further, OFCO officials have stated that they have
provided additional training to employees on travel card
regulations. In addition, DA should establish policy/
guidance for fair, equitable, and consistent treatment of
all employees when misuse is identified. OCFO
generally agreed with the findings and
recommendations, as did the Assistant Secretary for
Administration.




                                                            25
    Summary of Audit Activities—April 2003-September 2003
Reports Issued .................................................................................................................................................         40
  Audits Performed by OIG ....................................................................................                39
  Evaluations Performed by OIG ...........................................................................                      0
  Audits Performed Under the Single Audit Act .....................................................                             0
  Audits Performed by Others ................................................................................                   1

Management Decisions Made
  Number of Reports ........................................................................................................................................             38
  Number of Recommendations .......................................................................................................................                     283

Total Dollar Impact (Millions) .......................................................................................................................... $41.2
  Questioned/Unsupported Costs .......................................................................................... $22.2ab
     Recommended for Recovery .......................................................................... $17.8
     Not Recommended for Recovery ................................................................... $ 4.4
  Funds To Be Put to Better Use ............................................................................................ $19.0
a   These were the amounts the auditees agreed to at the time of management decision.
b   The recoveries realized could change as the auditees implement the agreed-upon corrective action plan and seek recovery of amounts recorded
    as debts due the Department.




    Summary of Investigative Activities—April 2003-September 2003
Reports Issued ...................................................................................................................................................      268
Cases Opened ...................................................................................................................................................        202
Cases Closed .....................................................................................................................................................      323
Cases Referred for Prosecution .........................................................................................................................                173

Impact of Investigations
  Indictments ....................................................................................................................................................      244
  Convictions ....................................................................................................................................................      223a
  Searches ........................................................................................................................................................      46
  Arrests ...........................................................................................................................................................   190

Total Dollar Impact (Millions) .......................................................................................................................... $24.1
  Recoveries/Collections ........................................................................................................ $ 8.5b
  Restitutions .......................................................................................................................... $13.2c
  Fines .................................................................................................................................... $ 0.6d
  Claims Established .............................................................................................................. $ 0.1e
  Cost Avoidance .................................................................................................................... $ 0.5f
  Administrative Penalties ....................................................................................................... $ 1.2f

Administrative Sanctions ................................................................................................................................               123
  Employees ........................................................................................................................... 31
  Businesses/Persons ............................................................................................................ 92
a
    Includes convictions and pretrial diversions. Also, the period of time to obtain court action on an indictment varies widely;
    therefore, the 223 convictions do not necessarily relate to the 244 indictments.
b
    Includes money received by USDA or other Government agencies as a result of OIG investigations.
c
    Restitutions are court-ordered repayments of money lost through a crime or program abuse.
d
    Fines are court-ordered penalties.
e
    Claims established are agency demands for repayment of USDA benefits.
f
    Consists of loans or benefits not granted as the result of an OIG investigation.
g
    Includes monetary fines or penalties authorized by law and imposed through an administrative process as a result of OIG findings.




26
 Full FY 2003 Results in Key Categories
OCTOBER 2002-SEPTEMBER 2003

Summary of Audit Activities

Reports Issued ...................................................................................................................................................   71

Total Dollar Impact (Millions) .............................................................................................................................. $74.1
  Questioned/Unsupported Costs ........................................................................................... $25.1
  Funds To Be Put to Better Use ............................................................................................ $49.0


Summary of Investigative Activities

Reports Issued ...................................................................................................................................................   461

Impact of Investigations
  Indictments ....................................................................................................................................................   491
  Convictions ....................................................................................................................................................   435

Total Dollar Impact (Millions) .............................................................................................................................. $68.5

Administrative Sanctions ....................................................................................................................................        405




                                                                                                                                                                           27
Statistical Data


 AUDITS WITHOUT MANAGEMENT DECISION
The following audits did not have management decisions made within the 6-month limit imposed by Congress.
Narratives for new entries follow this table. An asterisk (*) indicates that an audit is pending judicial, legal, or
investigative proceedings, which must be completed before the agency can act to complete management decisions.


 NEW SINCE LAST REPORTING PERIOD


                                                                                                        Amount With
                                                                                  Total Value             No Mgmt.
                                                                                  at Issuance             Decision
Agency              Date Issued             Title of Report                       (in dollars)           (in dollars)

APHIS                02/20/03           1. Safeguards To Prevent Entry                      0                     0
                                           of Prohibited Pests and
                                           Diseases Into the United
                                           States (33601-3-Ch)

                     03/31/03           2. Controls Over Permits To                         0                     0
                                           Import Biohazardous Materials
                                           (33601-4-Ch)

ARS                  03/28/03           3. Florida A&M University -                  560,371               421,764
                                           Science Center Cooperative
                                           Agreement (02007-1-At)

CCC                  12/26/02           4. FY 2002 CCC Financial                            0                     0
                                           Statements (06401-15-FM)

FNS                  02/07/03           5. FSP Administrative Costs                8,663,131                      0
                                           (27099-14-Te)

                     03/31/03           6. FSP Employment &                        3,152,731               614,600
                                           Training Program - Tennessee
                                           (27601-12-At)

FS                   02/28/03           7. FY 2002 Forest Service Financial                 0                     0
                                           Statements – Summary of IT
                                           Findings (08401-2-FM)

OPPM                 10/21/02           8. Departmental Compliance With                     0                     0
                                           the National Energy Policy Acts
                                           and Executive Order 13123
                                           (89099-1-HQ)

RBS                  01/10/03           9. Lender Servicing of B&I                 3,766,908             3,766,908
                                           Guaranteed Loans
                                           (34601-4-At)

RMA                  01/09/03           10. FY 2002 FCIC Financial                          0                     0
                                            Statements (05401-11-FM)
28
 PREVIOUSLY REPORTED BUT NOT YET RESOLVED


These audits are still pending agency action or are under judicial, legal, or investigative proceedings. Details on the
recommendations where management decisions had not been reached have been reported in previous Semiannual
Reports to Congress. Agencies have been informed of actions that must be taken to reach management decision, but
for various reasons the actions have not been completed. The appropriate Under and Assistant Secretaries have
been notified of those audits without management decisions.

                                                                                                        Amount With
                                                                                  Total Value             No Mgmt.
                                                                                  at Issuance             Decision
Agency              Date Issued              Title of Report                      (in dollars)           (in dollars)

CCC                  02/26/02            11. FY 2001 CCC Financial                     19,586                      0
                                             Statements (06401-4-KC)

Office of            09/30/98            12. Evaluation of CR Efforts                        0                     0
Civil Rights                                 To Reduce Complaints
(CR)                                         Backlog (60801-1-Hq)

                     03/24/99            13. Evaluation of CR Management                     0                     0
                                             of Settlement Agreements
                                             (60801-2-Hq)

                     03/10/00            14. Office of CR Management of                      0                     0
                                             Employment Complaints
                                             (60801-3-Hq)

                     03/10/00            15. Status of Implementation of                     0                     0
                                             Recommendations Made in
                                             Prior Evaluations of Program
                                             Complaints (60801-4-Hq)

CSREES               08/06/02            16. Grants to National Center              1,246,161             1,246,161
                                             for Resources Innovation
                                             (13099-2-Te)

FNS                  03/22/00            17. CACFP - National Initiative to           319,279                      0
                                             Identify Problem Sponsors -
                                             Wildwood, Inc. (27010-3-KC)

                     05/11/01            18. NSLP - Food Service                    3,572,137             3,572,137
                                             Management Companies
                                             (27601-12-KC)*

                     09/10/01            19. NSLP - Food Service                    3,537,912             3,198,926
                                             Management Companies
                                             MWR (27601-24-Ch)




                                                                                                                       29
                                                                                 Amount With
                                                                  Total Value      No Mgmt.
                                                                  at Issuance      Decision
Agency        Date Issued      Title of Report                    (in dollars)    (in dollars)

               11/21/01     20. CACFP - Wildwood, Inc. -          36,895,611     36,895,611
                                Phase II (27010-6-KC)

               03/29/02     21. NSLP - Chartwell’s                   307,711       307,711
                                Food Service Management
                                Company (27601-13-KC)*

FS             03/31/97     22. Research Cooperative and           1,771,984       468,547
                                Cost Reimbursable
                                Agreements (08601-18-SF)

               11/14/01     23. MATCOM – Contract Audit               66,899         66,899
                                (08017-10-KC)

FSA            09/28/95     24. Disaster Assistance Payments,      1,805,828      1,672,929
                                Lauderdale, TN (03006-4-At)

               03/30/99     25. Payment Limitation - Mitchell        881,924       881,924
                                County, Georgia (03006-20-At)

               07/30/01     26. 1999 Crop Disaster Program           950,891       950,891
                                (03099-42-KC)

               09/30/02     27. Assessments on Imported            4,583,797      4,583,797
                                Tobacco (03099-164-At)

FSIS           06/21/00     28. Implementation of the Hazard                0             0
                                Analysis and Critical Control
                                Point System (24001-3-At)

               06/21/00     29. Imported Meat and Poultry                   0             0
                                Inspection Process (24099-3-Hy)

               09/30/02     30. Overtime Controls (24099-4-At)              0             0

Multiagency    09/30/98     31. CSREES Managing Facilities         3,824,211         74,366
                                Construction Grants
                                (50601-5-At)

               03/31/99     32. Private Voluntary Organization    18,629,558     18,501,064
                                Grant Fund Accountability
                                (50801-6-At)

               9/28/00      33. Crop Loss Disaster                10,728,872       149,178
                                Assistance Program
                                (50801-3-KC)



30
                                                                         Amount With
                                                          Total Value      No Mgmt.
                                                          at Issuance      Decision
Agency   Date Issued       Title of Report                (in dollars)    (in dollars)

          09/09/02     34. Management of USDA              1,813,809              0
                           Hazardous Waste Management
                           Funds (50801-12-At)

OCIO      03/30/01     35. Security Over USDA IT                    0             0
                           Resources Needs Improvement
                           (50099-27-FM)

          09/10/02     36. FY 2002 USDA Government                  0             0
                           Information Security Reform
                           Act (50099-50-FM)

RBS       10/01/99     37. B&I Loan - Indiana                595,511       595,511
                           Farms Pork Marketing
                           (34099-3-Ch)

          01/28/02     38. Lender Servicing of             1,536,060      1,536,060
                           B&I Guaranteed Loans –
                           Florida (34601-3-At)

RD        08/05/02     39. Security Over IT Resources -             0             0
                           Rural Development
                           (85099-2-FM)

RHS       01/08/99     40. RRH Program - Dujardin            195,694       195,694
                           Property Management, Inc.,
                           Everett, WA (04801-5-SF)*

          05/25/00     41. RRH Nationwide Initiative       4,922,879      4,919,579
                           in Missouri, St. Louis, MO
                           (04801-2-KC)

          09/28/01     42. RRH, Insurance Expenses,          596,665       500,667
                           Phase II (04601-4-KC)

RMA       09/30/97     43. Crop Insurance on Fresh        15,082,744              0
                           Market Tomatoes
                           (05099-1-At)

          02/28/01     44. FY 2000 FCIC Financial                   0             0
                           Statements (05401-1-Hq)




                                                                                      31
                                                                        Amount With
                                                         Total Value      No Mgmt.
                                                         at Issuance      Decision
Agency   Date Issued      Title of Report                (in dollars)    (in dollars)

          03/12/01     45. RMA/FCIC FY 2000                        0             0
                           Financial Statements
                           Report on Management Issues
                           (05401-2-Hq)

          03/14/01     46. Crop Insurance for             2,254,014      2,254,014
                           Specialty Crops
                           (05601-4-At)

          05/21/01     47. Review of Written              1,565,730      1,565,730
                           Agreements (05002-1-Te)

          03/15/02     48. Monitoring of RMA’s                     0             0
                           Implementation of Manual 14
                           Reviews/Quality Control
                           Review System (05099-14-KC)

          09/30/02     49. Viability of 1999 Fall        21,100,000     21,100,000
                           Watermelon Crop Insurance
                           In Texas (05601-8-Te)

          09/30/02     50. Review of Large Insurance      6,998,779      6,998,779
                           Claims for Watermelon
                           (05601-9-Te)




32
 AUDITS WITHOUT MANAGEMENT DECISION - NARRATIVE FOR NEW ENTRIES




1. Safeguards To Prevent Entry of Prohibited                  4. FY 2002 CCC Financial Statements
   Pests and Diseases Into the United States                     (06401-15-FM), Issued December 26, 2002
   (33601-3-Ch), Issued February 20, 2003
                                                              We issued an unqualified opinion on CCC’s financial
Management decision has not been accepted for 30 of           statements. However, as in prior years, we continue to
the 37 recommendations. APHIS needs to provide us             identify material weaknesses in its internal controls over
with additional information regarding its Memoranda of        financial reporting. CCC still needs to improve its (1)
Understanding with the U.S. Department of Homeland            information security controls, (2) financial system
Security (DHS), and the arrangements that have been           functionality, (3) mechanisms that govern funds
or will be made to transfer inspection responsibilities to    controls, (4) financial reporting policies and procedures,
DHS. We also need additional information on other             and (5) budgetary accounting and reporting policies and
functions that will remain the responsibility of APHIS,       procedures.
such as the plans to enhance the accuracy of the
WADS database, the completion of background checks            We also identified instances of noncompliance with (1)
for APHIS employees, and the methodology to be used           the Computer Security Act of 1987 and the Government
in preparing GPRA reports.                                    Information Security Reform Act (GISRA), (2) the Debt
                                                              Collection Improvement Act of 1996, and (3) the Federal
2. Controls Over Permits To Import Biohazardous               Financial Management Improvement Act of 1996. We
   Materials (33601-4-Ch), Issued March 31, 2003              have agreed to management decision on 9
                                                              recommendations and continue to work with CCC to
Four of the 11 recommendations remain open. APHIS             reach management decision on the remaining 20
officials need to provide an additional response to clarify   recommendations. To reach management decision on
the current Veterinary Service (VS) procedures for            many of the remaining recommendations, CCC needs
inspecting new applicants prior to permit issuance. In        to provide us the proposed completion dates for its
addition, agency officials need to explain how they           planned corrective actions.
would check the validity of VS permit packages arriving
at ports-of-entry where APHIS personnel are not               5. FSP Administrative Costs (27099-14-Te),
present, and how they would handle permit packages               Issued February 7, 2003
that do not involve agricultural select agents.
                                                              The New Mexico State Agency responsible for FSP did
3. Florida A&M University - Science Center                    not follow FNS and Federal procurement guidelines to
   Cooperative Agreement (02007-1-At), Issued                 fund a new computer system to administer FSP and
   March 28, 2003                                             other Federal programs. The State agency incurred
                                                              unauthorized expenditures of over $8 million allocable
ARS agreed with most of our recommendations, but              to FSP. One recommendation remains open in the
generally disagreed with our recommendations that it          report. FNS continues to work with the State agency to
recover the $233,184 reimbursed for ineligible                identify and recover unauthorized amounts that may
personnel expenses and disallow the $57,444 pending           have been improperly reimbursed to the State. To
reimbursement, and recover the $114,512 reimbursed            accept management decision, we will need
for 36 ineligible items and disallow the $16,624 pending      documentation to show establishment of a claim for
reimbursement from ineligible items. ARS agreed that          amounts to be recovered.
one project was ineligible and agreed to recover
expenses associated with that project. ARS and OIG
continue to disagree whether three other projects are
eligible.




                                                                                                                     33
6. FSP Employment & Training Program –                     9. Lender Servicing of B&I Guaranteed Loans
   Tennessee (27601-12-At), Issued March 31, 2003             (34601-4-At), Issued January 10, 2003

This audit disclosed significant fiscal and program        Seven of this report’s recommendations remain without
management deficiencies in the State agency’s              management decision. We recommended that RBS, in
Employment and Training program. Excessive costs of        conjunction with the Office of the General Counsel,
over $3 million were claimed for a 2-year period.          reduce the guarantee. We based our recommendation
Management decisions have not been reached on four         on the lender’s lack of due diligence in the planning and
recommendations. We continue to work with FNS to           construction of the proposed sawmill, selection of an
resolve these recommendations.                             unorthodox method of appraising machinery and
                                                           equipment, and the application of guaranteed loan
7. FY 2002 Forest Service Financial Statements –           funds for an unauthorized purpose (repaying itself for
   Summary of IT Findings (08401-2-FM), Issued             funds advanced before RBS’ conditional commitment).
   February 28, 2003
                                                           10. FY 2002 FCIC Financial Statements
Management decisions have not been reached on the              (05401-11-FM), Issued January 9, 2003
report’s 16 recommendations. The report, issued as a
result of the FY 2002 FS Financial Statement audit, had    We issued an unqualified opinion on FCIC’s financial
recommendations to implement controls and improve          statements. However, we identified one material internal
security over the FS’ IT resources. We are reviewing       control weakness related to the reconciliation of fund
agency response to our recommendations, and working        balances reported by the U.S. Treasury with its general
with FS to achieve management decision.                    ledger. We identified two reportable conditions related
                                                           to its monitoring of the Reinsured Organizations and its
8. Departmental Compliance With the National               financial reporting process. We also identified instances
   Energy Policy Acts and Executive Order 13123            of noncompliance with the Privacy Act of 1974 and the
   (89099-1-HQ), Issued October 21, 2002                   Federal Financial Management Improvement Act of
                                                           1996. We have reached management decision on four
Our audit disclosed that some information included in      recommendations and continue to work with FCIC to
the Department’s Annual Report on Energy                   reach management decision on the remaining three
Management Activities was unsupported, incorrect, and/     recommendations. To reach management decision for
or incomplete, and thus could not be independently         one of the recommendations, FCIC needs to implement
verified. We attributed this condition to the absence of   an independent, comprehensive, and continuous
adequate quality assurance procedures established by       monitoring and testing effort to ensure its financial
the Office of Procurement and Property Management          management systems comply with Federal
(OPPM), the agency within USDA delegated by the            requirements.
Assistant Secretary for Administration with the
responsibility to prepare the Annual Report. We
recommended that OPPM develop a management
control process to ensure it verifies and maintains
documentation that supports the assertions made in the
Annual Report. We are working with OPPM to
implement our recommendations.




34
 INDICTMENTS AND CONVICTIONS

Between April 1 and September 30, 2003, OIG                  Indictments and Convictions
completed 268 investigations. We referred 173 cases to       April 1 - September 30, 2003
Federal, State, and local prosecutors for their decision.
                                                             Agency             Indictments           Convictions*
During the reporting period, our investigations led to
244 indictments and 223 convictions. The period of time      AMS                       2                     0
to obtain court action on an indictment varies widely;       APHIS                    45                    15
therefore, the 223 convictions do not necessarily relate     ARS                       6                     3
to the 244 indictments. Fines, recoveries/collections,       CSREES                    1                     2
restitutions, claims established, cost avoidance, and        ERS                       3                     0
administrative penalties resulting from our investigations   FNS                     127                   161
totaled about $24.1 million.                                 FS                        2                     2
                                                             FSA                      33                    17
The following is a breakdown, by agency, of indictments      FSIS                     12                    10
and convictions for the reporting period.                    NRCS                      3                     4
                                                             OCFO                      1                     0
                                                             RBS                       1                     1
                                                             RHS                       3                     3
                                                             RMA                       5                     3
                                                             RUS                       0                     2
                                                                                     ___                   ___
                                                             Totals                  244                   223

                                                             *
                                                                 This category includes pretrial diversions.




                                                                                                                     35
 OFFICE OF INSPECTOR GENERAL HOTLINE

The OIG Hotline serves as a national receiving point for
reports from both employees and the general public of
suspected incidents of fraud, waste, mismanagement,
and abuse in USDA programs and operations. During
this reporting period, the OIG Hotline received 807
complaints, which included allegations of participant
fraud, employee misconduct, and mismanagement, as
well as opinions about USDA programs. Figure 1
displays the volume and type of the complaints we
received, and figure 2 displays the disposition of those
complaints.




Figure 1                                                   Figure 2

Hotline Complaints                                         Disposition of Complaints
April 1 to September 30, 2003                              April 1 to September 30, 2003
(Total = 807)                                   Health/
                                                Safety                             Referred to
                                                  4            Referred to       USDA Agencies
Reprisal                                                                          for Response
  1                                                          FNS for Tracking                      Referred to
                      Participant                                  162                 366        State Agency
                        Fraud                                                                          32
                         397




Bribery                                        Opinion/
   2                                         Information
                                                  89         Referred to
                                                           USDA or Other                             Referred to
                  Waste/            Employee
              Mismanagement         Misconduct              Agencies for Filed Without Referred to Other Law
                   167                 147                  Information-    Referral-  OIG Audit or Enforcement
                                                           No Response Insufficient Investigations Agencies
                                                              Needed      Information for Review         1
                                                                135            73          38




36
 FREEDOM OF INFORMATION ACT (FOIA) AND PRIVACY ACT (PA) REQUESTS FOR THE PERIOD
 APRIL 1 TO SEPTEMBER 30, 2003


Number of FOIA/PA Requests Received                 128

Number of FOIA/PA Requests Processed:               133

  Number Granted                        27
  Number Partially Granted              29
  Number Nondisclosed                   77

Reasons for Denial:

  No Records Available                  12
  Referred to Other Agencies            21
  Denied in Full (Exemption 7A)         17
  Request Withdrawn                      3
  Fee-Related                            6
  Not a Proper FOIA Request              8
  Not an Agency Record                   0
  Duplicate Request                      3
  Other                                  7

Requests for OIG Reports From Congress
and Other Government Agencies

  Received                              38
  Processed                             35

Appeals Processed                                    3

  Appeals Completely Upheld               2
  Appeals Partially Reversed              0
  Appeals Completely Reversed             0

Number of OIG Reports/Documents                      52
Released in Response to Requests

NOTE: A request may involve more than one report.

During this 6-month period, 31 audit reports were
published on the Internet at the OIG Web site:
www.usda.gov/oig.




                                                                             37
Appendix I


                                     INVENTORY OF AUDIT REPORTS
                                  WITH QUESTIONED COSTS AND LOANS
                               FROM APRIL 1 THROUGH SEPTEMBER 30, 2003


                                                                         DOLLAR VALUES

                                                          QUESTIONED             UNSUPPORTEDa
                                              NUMBER    COSTS AND LOANS         COSTS AND LOANS

A. FOR WHICH NO MANAGEMENT                        40       153,124,841             84,772,187
   DECISION HAD BEEN MADE
   BY APRIL 1, 2003

B. WHICH WERE ISSUED DURING                       15        30,578,737              9,254,559
   THIS REPORTING PERIOD

     TOTALS                                       55      $183,703,578            $94,026,746

C. FOR WHICH A MANAGEMENT                         18
   DECISION WAS MADE DURING
   THIS REPORTING PERIOD

     (1) DOLLAR VALUE OF
         DISALLOWED COSTS

       RECOMMENDED FOR RECOVERY                            $17,831,270             $2,371,663

       NOT RECOMMENDED FOR RECOVERY                         $4,361,483                    $0

     (2) DOLLAR VALUE OF                                   $13,051,303             $5,652,581
         COSTS NOT DISALLOWED

D. FOR WHICH NO MANAGEMENT                        37      $149,031,962            $86,002,502
   DECISION HAS BEEN MADE BY
   THE END OF THIS REPORTING
   PERIOD

     REPORTS FOR WHICH NO                         29      $128,079,489            $76,754,606
     MANAGEMENT DECISION WAS
     MADE WITHIN 6 MONTHS
     OF ISSUANCE

a
Unsupported values are included in questioned values.




38
Appendix II


                             INVENTORY OF AUDIT REPORTS
                 WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                        FROM APRIL 1 THROUGH SEPTEMBER 30, 2003


                                    NUMBER      DOLLAR VALUE

A. FOR WHICH NO MANAGEMENT            16           $53,191,308
   DECISION HAD BEEN MADE
   BY APRIL 1, 2003

B. WHICH WERE ISSUED DURING            3          $675,867,175
   THE REPORTING PERIOD

  TOTALS                              19          $729,058,483

C. FOR WHICH A MANAGEMENT              7
   DECISION WAS MADE DURING
   THE REPORTING PERIOD

  (1) DOLLAR VALUE OF                              $19,008,946
      DISALLOWED COSTS

  (2) DOLLAR VALUE OF                                   $1,981
      COSTS NOT DISALLOWED

D. FOR WHICH NO MANAGEMENT            12           710,047,556
   DECISION HAS BEEN MADE BY
   THE END OF THE REPORTING
   PERIOD

  REPORTS FOR WHICH NO                 9            34,180,381
  MANAGEMENT DECISION WAS
  MADE WITHIN 6 MONTHS
  OF ISSUANCE




                                                                        39
Appendix III


                                  SUMMARY OF AUDIT REPORTS RELEASED
                                FROM APRIL 1 THROUGH SEPTEMBER 30, 2003

DURING THE 6-MONTH PERIOD FROM APRIL 1 THROUGH SEPTEMBER 30, 2003, THE OFFICE OF
INSPECTOR GENERAL ISSUED 40 AUDIT REPORTS, INCLUDING 1 PERFORMED BY OTHERS.

THE FOLLOWING IS A SUMMARY OF THOSE AUDITS BY AGENCY:

                                                           QUESTIONED    UNSUPPORTEDa     FUNDS BE
                                                 AUDITS      COSTS          COSTS          PUT TO
AGENCY                                          RELEASED   AND LOANS      AND LOANS      BETTER USE

FARM SERVICE AGENCY                                  5        $448,289      $152,535
FOOD AND NUTRITION SERVICE                          13      $1,831,418        $6,663
FOOD SAFETY AND INSPECTION SERVICE                   2
FOREST SERVICE                                       3
MULTIAGENCY                                          5        $20,052
NATURAL RESOURCES CONSERVATION
  SERVICE                                            1
RURAL BUSINESS-COOPERATIVE SERVICE                   6     $23,608,137     $9,095,361       $598,112
RURAL HOUSING SERVICE                                4      $4,670,841                    $3,183,305
RURAL UTILITIES SERVICE                              1                                  $672,085,758

     TOTALS                                         40     $30,578,737     $9,254,559   $675,867,175

     TOTAL COMPLETED:
       SINGLE AGENCY AUDIT                          35
       MULTIAGENCY AUDIT                             5
       SINGLE AGENCY EVALUATION                      0
       MULTIAGENCY EVALUATION                        0

     TOTAL RELEASED NATIONWIDE                      40

     TOTAL COMPLETED UNDER CONTRACTb                 1

     TOTAL SINGLE AUDIT ISSUEDc                      0

a
  Unsupported values are included in questioned values
b
  Indicates audits performed by others
c
  Indicates audits completed as Single Audit




                                                                                          – – Continued




40
                             AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                      FROM APRIL 1 THROUGH SEPTEMBER 30, 2003

                                                                      QUESTIONED    UNSUPPORTED    FUNDS BE
AUDIT NUMBER                                                            COSTS          COSTS        PUT TO
RELEASE DATE       TITLE                                              AND LOANS      AND LOANS    BETTER USE


FARM SERVICE AGENCY

030060008SF      DISASTER PAYMENTS TO PRUNE PRODUCERS IN                $295,754
2003/04/16       CALIFORNIA – PRODUCER D
030060016CH      FARM SERVICE COUNTY OFFICE AUDIT FY 2002
2003/06/06
030080002KC      REVIEW OF CCC BIDDING PROCEDURES AND
2003/09/25       AWARDS FOR COMMODITIES
030990166AT      IMPLEMENTATION OF THE PEANUT QUOTA BUYOUT              $152,535      $152,535
2003/08/12       PROGRAM
036010019KC      2000 MARKETING ASSISTANCE LOANS AND LOAN
2003/09/30       DEFICIENCY PAYMENTS

 TOTAL: FARM SERVICE AGENCY                                       5     $448,289      $152,535

FOOD AND NUTRITION SERVICE

270100006TE      NATIONAL SCHOOL LUNCH PROGRAM, NOVA
2003/09/24       CHARTER SCHOOL SOUTHEAST
270100007TE      NATIONAL SCHOOL LUNCH PROGRAM, LAKE WORTH –                  $1
2003/09/23       ISD
270100008TE      ACCOUNTABILITY AND OVERSIGHT OF THE NATIONAL
2003/09/30       SCHOOL LUNCH PROGRAM – ST. MARGARET MARY
                 SCHOOL, SAN ANTONIO, TX
270100009KC      NATIONAL SCHOOL LUNCH PROGRAM – EFFINGHAM, KS
2003/06/03
270100010KC      NATIONAL SCHOOL LUNCH PROGRAM – GIRARD, KS
2003/07/31
270100011KC      NATIONAL SCHOOL LUNCH PROGRAM – OTTAWA, KS               $1,415
2003/08/05
270100012KC      NATIONAL SCHOOL LUNCH PROGRAM – PITTSBURG, KS            $3,319
2003/08/29
270100013KC      NATIONAL SCHOOL LUNCH PROGRAM – BONNER SPRINGS,
2003/06/20       KS
270100015CH      FOOD STAMP PROGRAM ADMINISTRATIVE COSTS               $1,799,597
2003/08/13
270100018KC      NATIONAL SCHOOL LUNCH PROGRAM, ELWOOD, KS
2003/08/04
270160001SF      CACFP AUDIT FUNDS – CALIFORNIA DEPARTMENT OF            $27,086        $6,663
2003/04/16       EDUCATION
270990013TE      TEXAS EBT SYSTEM DEVELOPMENT
2003/06/23
270990022SF      REVIEW OF ELECTRONIC BENEFITS TRANSFER SYSTEM
2003/09/24       DEVELOPMENT – STATE OF NEVADA

 TOTAL: FOOD AND NUTRITION SERVICE                               13    $1,831,418       $6,663

FOOD SAFETY AND INSPECTION SERVICE

240990001FM      SECURITY OVER INFORMATION TECHNOLOGY
2003/08/11       RESOURCES AT FSIS
246010002KC      FSIS OVERSIGHT OF CONAGRA RECALL
2003/09/30

 TOTAL: FOOD SAFETY AND INSPECTION SERVICE                        2

FOREST SERVICE

080030008SF      FOREST SERVICE’S SOUTHERN CALIFORNIA
2003/04/01       CONSERVATION STRATEGY GROUP
080160001SF      FOLLOW-UP REVIEW OF FOREST SERVICE SECURITY
2003/09/30       OVER AIRCRAFT AND AIRCRAFT FACILITIES
080170012KC      CONTRACT AUDIT – MANAGEMENT ASSISTANCE
2003/08/01       CORPORATION OF AMERICA (MACA)

 TOTAL: FOREST SERVICE                                            3

                                                                                                           41
                            AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                     FROM APRIL 1 THROUGH SEPTEMBER 30, 2003

                                                                     QUESTIONED    UNSUPPORTED    FUNDS BE
AUDIT NUMBER                                                           COSTS          COSTS        PUT TO
RELEASE DATE      TITLE                                              AND LOANS      AND LOANS    BETTER USE

MULTIAGENCY

500990012KC    USDA – IMPLEMENTATION OF THE AGRICULTURAL RISK
2003/09/30     PROTECTION ACT
500990014AT    CONTROLS OVER BIOLOGICAL AGENTS, CHEMICALS
2003/09/29     AND RADIOACTIVE MATERIALS – USDA FUNDED
               RESEARCH FACILITIES
500990015KC    2000 CROP DISASTER PROGRAM                               $20,052
2003/09/30
50990052FM     FY 2003 FEDERAL INFORMATION SECURITY
2003/09/24     MANAGEMENT ACT
506010005HQ    ADEQUACY OF INTERNAL CONTROLS OVER TRAVEL
2003/06/06     CARD EXPENDITURES

 TOTAL: MULTIAGENCY                                             5       $20,052

NATURAL RESOURCES CONSERVATION SERVICE

100990010KC    NRCS HOMELAND SECURITY PROTECTION OF
2003/09/30     FEDERAL ASSETS

 TOTAL: NATURAL RESOURCES CONSERVATION SERVICE                  1

RURAL BUSINESS-COOPERATIVE SERVICE

340990005TE    REQUEST AUDIT OF B&I LOAN IN LOUISIANA                 $5,585,136
2003/09/30
340990006TE    B&I REQUEST AUDIT IN ARKANSAS                          $6,993,578
2003/07/29
346010005AT    RD LENDER SERVICING OF B&I GUARANTEED                  $9,145,549    $8,920,598
2003/08/27     LOANS IN GEORGIA
346010008SF    RURAL DEVELOPMENT – LIQUIDATION OF BUSINESS             $220,009      $174,763       $598,112
2003/09/30     AND INDUSTRY GUARANTEED LOANS
346010010TE    LENDER SERVICING OF B&I GUARANTEED LOANS -             $1,663,865
2003/07/23     LOUISIANA
346010015TE    NATIONAL REPORT ON B&I LOAN PROGRAM
2003/09/30

 TOTAL: RURAL BUSINESS-COOPERATIVE SERVICE                      6    $23,608,137    $9,095,361      $598,112

RURAL HOUSING SERVICE

040040003AT    RD RRH PROGRAM TENANT INCOME VERIFICATION -            $4,598,330                   $3,183,305
2003/06/26     GAINESVILLE, FL
040040005HY    SURVEY OF SINGLE FAMILY HOUSING PROGRAM IN
2003/05/27     MAINE
040990005AT    RD B&I GUARANTEED LOAN – PARADISE OF PUERTO
2003/06/12     RICO, INC.
046010002HY    REVIEW OF PROGRESSIVE PROPERTY MANAGEMENT,               $72,511
2003/07/22     INC., RRH PROJECTS

 TOTAL: RURAL HOUSING SERVICE                                   4     $4,670,841                   $3,183,305

RURAL UTILITIES SERVICE

096010006KC    RURAL UTILITIES SERVICE WATER AND WASTE                                           $672,085,758
2003/09/08     GRANTS

 TOTAL: RURAL UTILITIES SERVICE                                 1                                $672,085,758

        GRAND TOTAL:                                            40   $30,578,737    $9,254,559   $675,867,175




42
43
Abbreviations of Organizations
AMS      Agricultural Marketing Service
APHIS    Animal and Plant Health Inspection Service
ARS      Agricultural Research Service
CCC      Commodity Credit Corporation
CSREES   Cooperative State Research, Education, and Extension Service
CR       Office of Civil Rights
DHS      U.S. Department of Homeland Security
ERS      Economic Research Service
FAS      Foreign Agricultural Service
FCIC     Federal Crop Insurance Corporation
FNS      Food and Nutrition Service
FS       Forest Service
FSA      Farm Service Agency
FSIS     Food Safety and Inspection Service
GIPSA    Grain Inspection, Packers and Stockyards Administration
NASS     National Agricultural Statistics Service
NITC     National Information Technology Center
NRCS     Natural Resources Conservation Service
OCFO     Office of the Chief Financial Officer
OCIO     Office of the Chief Information Officer
OGC      Office of the General Counsel
OIG      Office of Inspector General
OMB      Office of Management and Budget
OPPM     Office of Procurement and Property Management
RBS      Rural Business-Cooperative Service
RD       Rural Development
RHS      Rural Housing Service
RMA      Risk Management Agency
RUS      Rural Utilities Service
USDA     U.S. Department of Agriculture
U.S. DEPARTMENT OF AGRICULTURE
OFFICE OF INSPECTOR GENERAL
STOP 2309
1400 INDEPENDENCE AVE., SW
WASHINGTON, DC 20250-2309




                                 www.usda.gov/oig
